<html>
<title> - CURRENT NATIONAL PARKS LEGISLATION</title>
<body><pre>[Senate Hearing 110-539]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-539
 
                   CURRENT NATIONAL PARKS LEGISLATION

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON
                                     

                           S. 1774                               S. 3017

                           S. 2255                               S. 3045

                           S. 2359                               S. 3096

                           S. 2943                               H.R. 1143

                           S. 3010                               H.R. 3022



                                     

                               __________

                             JUNE 17, 2008


                       Printed for the use of the
               Committee on Energy and Natural Resources


                     U.S. GOVERNMENT PRINTING OFFICE
44-853 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                   DANIEL K. AKAKA, Hawaii, Chairman

BYRON L. DORGAN, North Dakota        RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          LISA MURKOWSKI, Alaska
KEN SALAZAR, Colorado                BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHN BARRASSO, Wyoming
BLANCHE L. LINCOLN, Arkansas         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             GORDON H. SMITH, Oregon
JON TESTER, Montana                  MEL MARTINEZ, Florida

   Jeff Bingaman and Pete V. Domenici are Ex Officio Members of the 
                              Subcommittee

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator From Hawaii..................     1
Boxer, Hon. Barbara, U.S. Senator From California................     8
Burr, Hon. Richard, U.S. Senator From North Carolina.............     2
Christensen, Hon. Donna M., Delegate to Congress, U.S. Virgin 
  Islands........................................................     4
Knechtel, Jon, Director of Trail Management/Acting Executive 
  Director, Pacific Northwest Trail Association, Sedro-Woolley, 
  WA.............................................................    24
Martinez, Hon. Mel, U.S. Senator From Florida....................    10
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     3
Rey, Mark, Under Secretary, Natural Resources and Environment, 
  Department of Agriculture......................................     6
Taylor-Goodrich, Karen, Associate Director, Visitor and Resource 
  Protection, National Park Service, Department of the Interior..    12
Veni, George, Ph.D., Executive Director, National Cave and Karst 
  Research Institute.............................................    37

                                APPENDIX

Responses to additional questions................................    39


                   CURRENT NATIONAL PARKS LEGISLATION

                              ----------                              


                         TUESDAY, JUNE 17, 2008

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka presiding.

 OPENING STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR FROM 
                             HAWAII

    Senator Akaka. Good afternoon everyone. The Subcommittee on 
National Parks will come to order.
    Despite holding hearings on almost 20 park and historic 
preservation bills in April and reporting most of those from 
the full committee in May, we still have many requests to 
consider new bills. Like the previous hearings, this hearing 
will cover a wide range of subjects including two national park 
wilderness proposals, new national trail designations, the 
first proposed national heritage area in the Forest Service, a 
historical commemorative commission, and a proposal to lease 
high value, national park lands to allow for continued 
operation of a resort.
    At this point I'd like to list the specific bills that we 
will be hearing today. They include:
    S. 1774 and H.R. 3022, which would designate certain lands 
as wilderness in the Sequoia-Kings Canyon National Park in 
California;
    S. 2255, to authorize studies of the Chisholm Trail and the 
Great Western Trail for potential addition to the National 
Trails System;
    S. 2539, to establish a commission to commemorate the 450th 
anniversary of the founding of St. Augustine, Florida;
    S. 2493, to designate the Pacific Northwest National Scenic 
Trail;
    S. 3010, to reauthorize the Route 66 Corridor Preservation 
Program;
    S. 3017, to designate the Beaver Basin Wilderness in 
Pictured Rocks National Lakeshore in Michigan;
    S. 3045, to establish the Kenai Mountains-Turnagain Arm 
National Forest Heritage Area in Alaska;
    S. 3096, to authorize appropriations for the National Cave 
and Karst Research Institute; and
    H.R. 1143, to authorize the Secretary of the Interior to 
lease the Caneel Bay property in Virgin Islands National Park.
    While many of the bills on today's agenda are supported by 
the Park Service and are not controversial, others raise 
important policy issues. I hope to use this afternoon's hearing 
to better understand some of the issues of concern. At this 
time I'd like to recognize Senator Burr, our ranking member of 
the subcommittee for his opening statement.
    Senator Burr.
    [The prepared statement of Senator Cantwell follows:]

Prepared Statement of Hon. Maria Cantwell, U.S. Senator From Washington

    Thank you Mr. Chairman for holding today's hearing on several 
important public lands bills and for including a bill I introduced with 
Senator Murray to designate the Pacific Northwest Trail a National 
Scenic Trail.
    I'd also like to specifically welcome Jon Knechtel (Kuh-necktell) 
from Washington state, the Director of Trail Management and Acting 
Executive Director of the Pacific Northwest Trail Association.
    Mr. Knechtel has worked tirelessly over the years, together with 
volunteers, partners, and students to promote, share, and bring greater 
recognition to the Pacific Northwest Trail.
    My home state of Washington, and the Pacific Northwest in general, 
is home some of the most pristine nature and breathtaking scenery this 
country has to offer.
    The Pacific Northwest Trail, running from the Continental Divide to 
the Pacific Coast, is 1,200 miles long and ranks among the most scenic 
trails in the world.
    This carefully chosen path runs through the Rocky Mountains, 
Selkirk Mountains, Pasayten Wilderness, North Cascades, Olympic 
Mountains, and Wilderness Coast.
    From beginning to end it passes through three states, crosses three 
National Parks, and winds through seven National Forests.
    Designating the Pacific Northwest Trail a National Scenic Trail 
will give it the proper recognition, bring benefits to countless 
neighboring communities, and promote its protection, development, and 
maintenance.
    In 1980, the National Park Service and the Forest Service completed 
a feasibility study of the proposed Pacific Northwest Trail.
    The study concluded that the Pacific Northwest Trail has the scenic 
and recreational qualities needed for designation as a National Scenic 
Trail.
    Today, approximately 950 miles of the Pacific Northwest Trail are 
completed and provide significant outdoor recreational experiences to 
citizens and visitors of the United States.
    Three segments of the Trail have already been designated as 
national recreation trails.
    Adding the Pacific Northwest Trail to the National Trail--System 
has gained the support of Commissioners in Clallam, Jefferson, Island, 
Skagit, Whatcom, Okanogan, Ferry, Stevens, and Pend Oreille Counties in 
Washington and Boundary County in Idaho.
    Many County Commissioners and Mayors in numerous cities along the 
trail support the national scenic designation and the economic impact 
the trail has had on their communities.
    National Scenic Trails provide recreation, conservation, and 
enjoyment of significant scenic, historic, natural, or cultural 
qualities. The Pacific Northwest Trail is a national prize and should 
be recognized as such.
    I look forward to working with this committee to properly recognize 
one of the truly most scenic trails in our nation's land.

    STATEMENT OF HON. RICHARD BURR, U.S. SENATOR FROM NORTH 
                            CAROLINA

    Senator Burr. Thank you, Mr. Chairman. Good afternoon. 
Thank you for convening this very important meeting.
    Now we do have a full agenda as usual. All of these bills 
are important. But two have caught my attention as I prepared 
for this hearing.
    First is S. 3045 which would establish the Kenai Mountain 
National Heritage Area in the State of Alaska. Senator 
Murkowski can be assured that I'm not questioning the merits of 
this area for national designation. But we need to take a close 
look at how it's been structured.
    Of 40 National Heritage Areas that currently exist, all of 
them are placed under the jurisdiction of the Department of the 
Interior. S. 3045 would make the Department of Agriculture 
responsible for the Kenai Mountains Heritage Area. Why is it 
necessary to place it within agriculture? Is it the right thing 
to do? I'd like to discuss that with our witnesses today after 
receiving their testimony.
    The second item of concern is H.R. 1143 a bill to authorize 
the National Park Service to arrange a long term lease with the 
proprietors of Caneel Bay Resort in the Virgin Islands National 
Park. At first glance this looks like we're authorizing a sole 
source contract and a sweet deal for a profit making company. I 
understand that the National Park Service views it as a 
beneficial arrangement for the U.S. Government and supports the 
legislation. I'm very interested in hearing the logic behind 
the Park Service's position this morning.
    I'd like to thank the witnesses for being here today. I 
look forward to hearing their testimonies. At this time, Mr. 
Chairman, I would yield back.
    Senator Akaka. Thank you very much, Senator Burr. Now I'd 
like to call on Senator Murkowski for her statement.
    Senator Murkowski.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Chairman. You know between 
the McCaskill, Mikulski and Murkowski, all three women. The 
fact that you got close was just fine.
    Chairman, I want to thank you for adding S. 3045, which 
will establish the Kenai Mountains-Turnagain Arm National 
Forest Heritage Area. This is in my State. I appreciate it 
being on the agenda today.
    We have a very rich history in the State. But in spite of 
nearly a decade of effort, Alaska hosts not one single National 
Heritage Area. This would be the first for Alaska. I do believe 
it's about time.
    The proposed Heritage Area designation has been endorsed by 
the municipality of Anchorage, the Kenai Peninsula Burrow and 
the Cities of Seward and Whittier as well as numerous 
conservation and historic preservation groups. This proposed 
Heritage Area would encompass some of Alaska's most beautiful 
and most accessible and most heavily visited places including 
the communities of Girdwood, Cooper Landing, Hope, Seward and 
Whittier. This area in the State draws many, many visitors, 
tens of thousands of visitors each year from every part of our 
Nation and around the world. Yet few of our visitors know much 
more about the area than that it offers some of the most 
picturesque scenery that our Nation has to offer.
    The Kenai-Turnagain Arm Corridor Communities Association 
was created back in 2000 to promote the historic and cultural 
significance of this area. In 2000 the Senate passed 
legislation designating a heritage area under the auspices of 
the National Park Services National Heritage Area program. This 
legislation wasn't enacted into law, but the Corridor 
Communities Association didn't give up. They worked over the 
past several years to refine their proposal.
    The current proposal that we see in the legislation would 
establish our Nation's first National Heritage Area under the 
auspices of the Forest Service. This is the product of several 
years of conversations between the Chugach National Forest and 
National Park Service in the Alaska region. I'm told that the 
proposal fits within the strategic direction of the Chugach 
National Forest.
    It is an outside the box, innovative approach to the 
Heritage Area concept. It was custom designed to address the 
capabilities, the limitations of the communities involved. It 
steers clear of some of the criticisms about National Heritage 
Areas that are often advanced here in the Senate. It's been 
described as a low budget approach which would leverage 
partnerships and existing facilities to tell the stories of 
these unique communities to the visitors that are drawn to the 
region.
    This afternoon we'll hear from the Department of 
Agriculture and the National Park Service on S. 3045. The 
Corridor Communities Association has submitted testimony for 
the record along with supporting resolutions. I would ask that 
they would also be included in the record, and further ask that 
the endorsing letter of the National Park's Conservation 
Association be included in the record.
    I'm pleased that we have the witnesses with us today and 
look forward to the testimony on this bill and the other 
matters on the agenda. Thank you.
    Senator Akaka. Thank you very much, Senator Murkowski. Now 
I'd like to call on Congresswoman Donna Christensen for your 
statement on H.R. 1143.

 STATEMENT OF HON. DONNA M. CHRISTENSEN, DELEGATE TO CONGRESS, 
                      U.S. VIRGIN ISLANDS

    Ms. Christensen. Yes. Good afternoon. Good afternoon, 
Chairman Akaka, Ranking Member Burr, Senator Murkowski. It's 
good to be back here again.
    Senator Akaka. We're pleased to welcome you back to the 
subcommittee.
    Ms. Christensen. Yes, thank you and thanks for once again 
allowing me to make a brief statement in support of legislation 
that I sponsored, H.R. 1143 which would authorize the Secretary 
of the Interior to enter into a lease with the owners of Caneel 
Bay Resort in my Congressional District. I want to thank you 
for such a timely scheduling of this hearing on the bill.
    Mr. Chairman and ranking member, members of the 
subcommittee, Caneel Bay traces its roots to Lawrence 
Rockefeller's coming to the Island of St. John in 1952. He 
purchased a then existing resort facilities and also acquired 
more than 5,000 surrounding acres to protect the area. In 1956 
he donated the additional land to create the Virgin Islands 
National Park. At the same time he created Caneel Bay Resort 
comprising of 170 acres which complements and is 
environmentally consistent with the natural beauty of the park 
setting and that remains the case today.
    Mr. Rockefeller subsequently decided to transfer the land 
underlying Caneel Bay to the National Park Service while 
retaining the improvements and continuing the Caneel Bay 
operations. He accomplished this through the execution of a 
series of unique agreements generally known as a retained use 
estate or RUE. H.R. 1143 became necessary because the RUE is 
slated to expire in 2023 and its current owners require more 
than its remaining 15 years to provide the capital and long 
term financing necessary to reverse some of the decline that's 
happening at the facilities at the resort and to make sure that 
we return it and keep it at the grandeur and stature that it 
deserves.
    Mr. Chairman, other than the Virgin Islands National Park, 
Caneel Bay Resort is perhaps the single most important entity 
to the tourism based economy of St. John and the Virgin Islands 
in general. It is not an exaggeration to say that Caneel Bay 
helped to establish the U.S. Virgin Islands. The Island of St. 
John, in particular is a major tourist destination point 
playing a prominent role in the Islands economic renaissance.
    Since its founding in October 1956 it has been and remains 
the paradise of choice for generations of families, many of 
whom return every year. It is the largest employer on St. John, 
employing approximately 475 workers. Many of whom spend their 
entire careers spanning two or three decades, some even more, 
as employees of Caneel.
    The National Park Service testified in support of the bill 
when it was considered in the House. I hope that they will do 
so again today. We also worked with the executors of Lawrence 
S. Rockefeller's estate and the trustees of his family's 
conservation, non-profit, Jackson Hole Preserve to secure their 
support of the legislation which would provide the National 
Park Service leasing authority with certain conditions which we 
all believe can be addressed in the negotiations between the 
two parties.
    In conclusion let me thank you once again, Mr. Chairman for 
holding this hearing on H.R. 1143 today. I look forward to 
working with you and your colleagues to move the bill to the 
floor of the full Senate and on to the White House for the 
President's signature.
    Senator Akaka. Thank you very much for your statement. Now 
I'd like to call the witnesses. Before we do that, are there 
any questions for our Congressman Christensen?
    Thank you very much, Congresswoman Christensen. We normally 
have a separate panel for Administration witnesses. So we'll 
call on them. I want to thank you for being here and welcome 
your statement.
    I would like to invite all three of our witnesses to come 
to the table at this time. In our next panel are the Honorable 
Mark Rey, Under Secretary for Natural Resources and 
Environment, Department of Agriculture;
    Karen Taylor-Goodrich, Associate Director, Visitor and 
Resource Protection, National Park Service;
    Jon Knechtel, Acting Executive Director, Pacific Northwest 
Trail Association.
    Now I'd like to call on Honorable Mark Rey to begin with 
your statement.

 STATEMENT OF MARK REY, UNDER SECRETARY, NATURAL RESOURCES AND 
             ENVIRONMENT, DEPARTMENT OF AGRICULTURE

    Mr. Rey. Thank you, Mr. Chairman. Thank Senator Murkowski, 
Senator Burr. Thank you for the opportunity to testify here 
today on S. 3045 which would establish the Kenai Mountains-
Turnagain Arm National Forest Heritage Area in South Central 
Alaska.
    In previous testimony before this subcommittee on similar 
legislation the Administration has recommended that the 
committee defer action on proposed individual heritage area 
designations until national program legislation is enacted that 
establishes guidelines and a process for the designation of the 
National Heritage Areas. We still support that position. As 
other specific designations have programmatic authorizations 
like the National Wilderness Act, the National Wild and Scenic 
Rivers Act, the National Trails Act, designations that the 
Heritage Areas lack.
    Notwithstanding that view, the Administration appreciates 
the strong community advocacy for designation of the Kenai 
Mountains-Turnagain Arm National Forest Heritage Area. If 
feasible this designation would recognize the nationally 
significant history of the Kenai Peninsula by providing for the 
interpretation of the history and culture of the area. This 
designation upon a determination of the feasibility would also 
facilitate public enjoyment of these resources and would foster 
cooperative planning and partnerships among communities and 
State and Federal Government.
    S. 3045 would designate one million, two hundred and 17 
thousand and 600 acres on the Kenai Peninsula as a National 
Forest Heritage Area. Modeled after other National Forest 
National Heritage Areas administered by the National Park 
Service this would be, as already indicated, the first to be 
administered by the Forest Service. 89 percent of the lands 
within the proposed boundaries are part of the Chugach National 
Forest. The proposed Heritage Area is also surrounded by the 
remainder of the more than 5.3 million acres of the Chugach 
National Forest.
    Like the National Park Service, the Forest Service values 
heritage resources and considers it part of the agency's 
mission to preserve and interpret them for the public. Indeed, 
this year, the Forest Service was given a Preserve America 
award for agency action in the heritage preservation arena by 
the First Lady.
    The Administration believes that the rich history, 
spectacular natural resource values and community support 
merits the completion of a Heritage Area feasibility study will 
offer the evaluation of the area prior to designation. 
Completion of the study for this heritage area would assure the 
alignment with the management goal of the Chugach National 
Forest and provide a strong framework for collaborative 
management under which the significant historical resources of 
the area would strive, thrive and grow. Information covering 
many of the criteria for a National Heritage Area feasibility 
studies has already been gathered in previous studies for the 
Iditarod National Heritage Area--National Heritage Trail and 
the Seward Highway National Scenic Byway.
    We recommend that a final feasibility analysis which could 
be conducted relatively quickly, be prepared that would 
consolidate all of this information into one document, make any 
Federal boundary adjustments that may be necessary or identify 
any further unknowns. We would be more than willing to work 
with the committee on this scope of such an analysis.
    Finally Section Eight of the bill would provide that all 
laws applicable to the Federal, tribal, State, local and 
private lands in the designated area would continue to apply. 
As part of the extensive public involvement in developing the 
revised management plan for the Chugach National Forest, the 
Forest Service worked directly with the proponents of the 
Heritage Area to incorporate goals and objectives into the 
forest plan that express the mutual interest in protecting and 
interpreting the cultural resources of the Kenai Peninsula. The 
local coordinating entity has worked tirelessly to bring the 
concept of a heritage area for this part of Alaska to reality. 
The Administration supports its energy and enthusiasm as it 
dovetails with Forest Service support for local communities on 
the Kenai Peninsula.
    With that, Mr. Chairman, I would be happy to submit the 
entire statement to the record and respond to any questions 
that you've got.
    [The prepared statement of Mr. Rey follows:]

Prepared Statement of Mark Rey, Under Secretary, Natural Resources and 
           Environment, Department of Agriculture, on S. 3045

    Mr. Chairman and members of the Subcommittee: Thank you for the 
opportunity to testify here today on S. 3045 which would establish the 
Kenai Mountains-Turnagain Arm National Forest Heritage Area in the 
State of Alaska.
    In previous testimony before this Subcommittee on similar 
legislation, the Administration has consistently recommended that the 
Committee defer action on proposed heritage area designations until 
national program legislation is enacted that establishes guidelines and 
a process for the designation of national heritages areas. We still 
support that position and recommend that the Committee defer action on 
S. 3045. The Administration appreciates the strong community advocacy 
for designation of the Kenai Mountains-Turnagain Arm National Forest 
Heritage Area. If feasible, this designation would recognize the 
nationally significant history of the Kenai Peninsula by providing for 
the interpretation of the history and culture of the area. This 
designation upon a determination of feasibility would also facilitate 
public enjoyment of these resources, and would foster cooperative 
planning and partnerships among communities, and State and Federal 
governments.
    S. 3045 would designate 1,217,600 acres on the Kenai Peninsula as a 
National Forest Heritage Area. Modeled after other National Heritage 
Areas administered by the National Park Service, this would be the 
first to be administered by the Forest Service. Eighty-nine percent of 
the lands within the proposed boundaries are within the Chugach 
National Forest. The proposed heritage area is also surrounded by the 
remainder of the Chugach's more than 5.3 million acres.
    Like the National Park Service, the Forest Service values heritage 
resources and considers it part of the agency's mission to preserve and 
interpret them for the public. The Administration believes that the 
rich history, spectacular natural resource values, and community 
support merits the completion of a heritage area feasibility study that 
would allow for evaluation of the area prior to designation. Completion 
of a feasibility study for this heritage area would assure alignment 
with the management goals of the Chugach National Forest and provide a 
strong framework for collaborative management under which the 
significant historical resources of the area would thrive and grow. 
Information covering many of the criteria for national heritage area 
feasibility studies has been gathered in previous studies for the 
Iditarod National Heritage Trail and the Seward Highway National Scenic 
Byway. We recommend that a final feasibility analysis be prepared that 
would consolidate all this information into one document, make any 
final boundary adjustments that may be necessary, or identify any 
unknowns. We would be willing to work with the Committee on the scope 
of the analysis.
    Section 5 of the bill would designate a local non-profit 
coordinating entity to develop and implement a management plan for the 
heritage area. Section 6 would require the entity to submit the 
management plan to the Secretary of Agriculture for approval or 
disapproval. The management plan would be consistent with the 
applicable Federal, State, borough, and local plans.
    Section 7(a) would direct the Secretary of Agriculture to enter 
into a memorandum of understanding with the Secretary of the Interior 
to establish a general framework for cooperation and consultation in 
the review and implementation of the management plan. The Forest 
Service and the National Park Service will work cooperatively to 
support this community-based effort.
    Section 7(c) would require the Secretary of the Interior to include 
the heritage area in nationwide releases, listings, and maps developed 
by the National Park Service about national heritage areas. The 
Administration recognizes the advantages and efficiencies to be gained 
by this requirement.
    Section 8 of the bill would provide that all laws applicable to the 
Federal, Tribal, State, local, or private lands in the designated area 
would continue to apply. As part of the extensive public involvement in 
developing the revised Land Management Plan for the Chugach National 
Forest, the Forest Service worked directly with proponents of the 
heritage area to incorporate goals and objectives into the plan that 
express the mutual interest in protecting and interpreting the cultural 
resources of the Kenai Peninsula. The local coordinating entity has 
worked tirelessly to bring the concept of a heritage area for this part 
of Alaska into reality. The Administration supports its energy and 
enthusiasm, as it dovetails with Forest Service support for local 
communities on the Kenai Peninsula.
    In conclusion Mr. Chairman, should S. 3045 be enacted to include a 
feasibility study that meets applicable standards for other heritage 
areas and provides Congress with the necessary information and 
assessment upon which to base its decision regarding designation in the 
future, the Forest Service looks forward to working with you, the local 
coordinating entity, and the National Park Service to carry out the 
intent of the amended bill. I would be happy to answer any questions 
you may have. Thank you.

    Senator Akaka. Thank you very much Mr. Rey for your 
statement and your full statement will be included in the 
record.
    At this point I'd like to call on Senator Boxer and ask you 
for your statement.

         STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR 
                        FROM CALIFORNIA

    Senator Boxer. Chairman Akaka, Ranking Member Burr and 
members of the subcommittee, thank you so much for considering 
S. 1774, the Sequoia-Kings Canyon National Park Wilderness Act 
and for giving me the opportunity, which I greatly treasure, to 
testify in front of you today. Co-sponsored by Senator 
Feinstein this bipartisan, bicameral effort will protect almost 
115,000 acres of spectacular high Sierra lands within Sequoia 
and Kings Canyon National Parks, including majestic, granite 
peaks, deep canyons, extensive caverns and awe inspiring 
Sequoia groves.
    This bill is sponsored in the House by Representatives Jim 
Costa and Devin Nunes, a democrat and a republican. I'm so 
proud to have worked in close partnership with these Members of 
Congress over the last year and a half to get this bill 
negotiated, drafted and moved. Indeed just last Monday, this 
bill passed the House of Representatives by a voice vote. As 
you know in these contentious times it's--and that doesn't 
happen very often.
    Specifically the bill would create one new wilderness area. 
We want to name it the John Krebs Wilderness, named after a 
former Congressman who is really an unsung conservationist and 
a man of extraordinary political courage and will expand one 
other, the Sequoia-Kings Canyon Wilderness. These areas, much 
loved by Californians and Americans from all over the country 
will remain open to the public for recreational activities, 
such as camping and hiking and horseback riding, so future 
generations can enjoy them just as we have.
    My testimony is brief. I have about another 2 minutes. I'd 
like to just show you what we're talking about in these 
magnificent photographs.
    Senators, I think if you look at these photographs you'll 
see why this has no opposition. This is Mineral King Valley, 
the spectacular valley in the heart of this bill. We'll show 
you Mineral King in winter and about 7,000 of those are the 
John Krebs Wilderness Area. There. That's it.
    Naming the new wilderness area, again created by this 
proposal after former Congressman Krebs, who's 82 now, is an 
overdue and fitting tribute to a great conservationist. He 
deserves our gratitude for preserving the pristine natural 
beauty of the park that we enjoy today.
    I want to show you Redwood Mountain at sunrise. Redwood 
Mountain. The bill includes a designation for the Redwood 
Mountain Grove, the park's largest grove of the world's largest 
trees, sequoias.
    The area also includes California's longest cave, Lilburn 
Cave with over 17 miles of surveyed caverns, the historic, old 
Hockett Trail, one of the cross Sierra routes in the Southern 
Sierra Nevada Range. This is Hockett meadow. This is so 
beautiful.
    The tremendous diversity of the elevations and geology of 
these areas yield an equally diverse array of terrestrial, 
aquatic and subterranean ecosystems. Here's a chart of Chimney 
Rock. This image of Chimney Rock helps to demonstrate the vast 
array of geologic diversity here.
    In turn the lands provide much needed habitat for wildlife 
including the Golden Eagle, Bighorn Sheep, the Spotted Owl and 
the Mountain Yellow Leg Frog. We need to preserve these species 
here. So we develop elsewhere, they have a place to go.
    The last thing I'm going to show you here is Big Baldy 
Mountain. Finally, this picture shows the magnificent high 
Sierra that Americans recognize as, I'd say, quintessentially 
Western. My legislation, our legislation will ensure that these 
beautiful areas will be sustained and preserved as part of 
America's identity and rich, natural heritage.
    In closing I want to note that this legislation was 
developed in close consultation with local communities, elected 
officials, recreation organizations, businesses, Federal and 
State agencies and local property owners. I look forward to 
working with each and every one of you as well as Chairman 
Bingaman and Ranking Member Domenici to move this bill forward 
before the end of the session. I think by any measure that you 
could choose, bipartisan support, business support, community 
support, home owner support, the beauty of the area. It passes 
the test with flying colors.
    I thank you so much, members, for this opportunity.
    [The prepared statement of Senator Boxer follows:]

 Prepared Statement of Hon. Barbara Boxer, U.S. Senator From California

    Chairman Akaka, Ranking Member Burr, and members of the 
Subcommittee, thank you for considering S. 1774, the Sequoia-
Kings Canyon National Park Wilderness Act, and for giving me 
the opportunity to testify in support of my legislation.
    Cosponsored by Senator Feinstein, this bipartisan, 
bicameral effort will protect almost 115,000 acres of 
spectacular High Sierra lands within Sequoia and Kings Canyon 
National Parks, including majestic granite peaks, deep canyons, 
extensive caverns and awe-inspiring Sequoia groves.
    This bill is sponsored in the House by Representatives Jim 
Costa and Devin Nunes--a Democrat and a Republican. I am so 
proud to have worked in close partnership with these members of 
Congress over the last year and a half to get this bill 
negotiated, drafted and moved.
    Indeed, just last Monday, this bill passed the House of 
Representatives by a voice vote.
    Specifically, this bill would create one new wilderness 
area, the John Krebs Wilderness--named after the former 
Congressman, an unsung conservationist hero and a man of 
extraordinary political courage--and expand one other, the 
Sequoia-Kings Canyon Wilderness.
    These areas, much loved by Californians and Americans from 
all over the country, will remain open to the public for 
recreational activities such as camping, hiking, and horseback 
riding so future generations can enjoy them just as we have.
    Let me take a few minutes now and show you why this public 
land is so special and why it deserves Wilderness protection.
    First, is the spectacular Mineral King Valley, the heart of 
this bill.
    Our bill designates the John Krebs Wilderness--almost 
70,000 acres, including the 15,000 acre Mineral King Valley.
    As many of you may recall, John Krebs, the former Fresno 
County Supervisor and U.S. Congressman tirelessly and 
successfully fought to keep Mineral King Valley undeveloped in 
the 1970's by transferring the land into the Park.
    Naming the new wilderness area created by this proposal 
after former Congressman Krebs, now 82 years old, is an overdue 
and fitting tribute to a great conservationist and legislator. 
John deserves our gratitude for preserving the pristine natural 
beauty of the Park that we enjoy today.
    Next, is Redwood Mountain. The bill includes a designation 
for the Redwood Mountain Grove, the Park's largest grove of the 
world's largest trees--Sequoias.
    The areas also include California's longest cave, Lilburn 
Cave, with over 17 miles of surveyed caverns, and the historic 
Old Hockett Trail, one of the first cross-Sierra routes in the 
southern Sierra Nevada range.
    This chart shows a picture of Hockett Meadow, along this 
route.
    Additionally, the tremendous diversity of elevations and 
geology of these areas yield an equally diverse array of 
terrestrial, aquatic and subterranean ecosystems.
    This image of Chimney Rock helps to demonstrate the vast 
array of geologic diversity.
    In turn, these lands provide much needed habitat for 
wildlife, including the California Spotted Owl, Golden Eagle, 
bighorn sheep, and mountain yellow-legged frog.
    Finally, this picture on top of Big Baldy Mountain shows 
the magnificent High Sierra that Americans recognize as 
quintessentially California.
    My legislation will ensure that these beautiful areas will 
be sustained and preserved as part of California's identity and 
rich, natural heritage.
    I would also like to note that this legislation was 
developed in close consultation with local communities, elected 
officials, recreation organizations, businesses, federal and 
state agencies and local property owners.
    In closing, thank you again for this opportunity to testify 
in support of this important legislation to protect 
California's Sierra Nevada range and honor former Congressman 
John Krebs.
    I look forward to working with each of you, as well as 
Chairman Bingaman and Ranking Member Domenici, to move this 
bill forward before the end of this session.

    Senator Akaka. Thank you very much, Senator Boxer. Thank 
you for your statement. Are there any questions to her? 
Otherwise, let me ask--thank you very much, Senator Boxer.
    Senator Martinez, do you have any statement?

         STATEMENT OF HON. MEL MARTINEZ, U.S. SENATOR 
                          FROM FLORIDA

    Senator Martinez. Mr. Chairman, I do indeed. Thank you for 
calling on me and for holding this hearing. Mr. Chairman, I 
wanted to speak on behalf of Senate bill 2359, is the St. 
Augustine 450th Commemorative Commission Act.
    Today marks another important step for the people of St. 
Augustine, Florida to honor the incredible history and the 
significance of its founding as the first permanent European 
colony in 1565. So I wanted to take this opportunity to 
recognize Mayor Joe Boyles of St. Augustine and all of the 
State and local stakeholders that have come together to begin 
the preparation for this exciting event. I also would like to 
ask that a letter from Mayor Boyles to the Energy and Natural 
Resources Committee be submitted for the record.
    St. Augustine has been at the very center of our Nation's 
founding. Its old and complex history mirrors much of the 
American experience. This city was the birthplace of 
Christianity in the New World. It was truly our first blending 
pot of cultures that included peoples of Spanish, English, 
French, Native American and African decent.
    Many do not know that St. Augustine is the location of the 
first parish mass in the United States. It was the location of 
the first free black settlement in North America.
    Nearly a century before the founding of Jamestown, Spanish 
explorer Juan Ponce de Leon landed off the coast of St. 
Augustine. He was looking for the fabled Fountain of Youth. But 
instead he founded a colony known as La Florida.
    He discovered very favorable currents that would later be 
known as the Gulf Stream which would serve as straight routes 
for European explorers to discover other parts of the New 
World. Because of St. Augustine's location along the strategic 
trade routes, Spain constructed the Castillo de San Marcos in 
1762 to protect the capital of La Florida from French and 
British interest. The Castillo de San Marcos is built on the 
ruin of the original fort that was burned to the ground by 
famous British sailor and explorer, Sir Francis Drake. The fort 
still stands today and has had six different flags fly above 
its ramparts. It's the oldest surviving European fortification 
in the United States.
    The legislation before the committee today is modeled 
largely along the lines of the Commission authorized by 
Congress for the founding of Jamestown in Virginia. The St. 
Augustine Commission, Mr. Chairman, is necessary to help 
organize a tremendous amount of historical and cultural events 
that will take place in Florida's first coast. In addition the 
Commission will provide the necessary framework to navigate the 
significant logistical challenges that the city of St. 
Augustine, the State of Florida and the National Park Service 
will face in coordinating efforts for an event of this 
magnitude.
    The Commission will encompass a broad array of members from 
Federal, State, local and academic backgrounds to ensure they 
have the diverse make up of professionals to assist the city of 
St. Augustine in celebrating its founding. This legislation is 
bipartisan and is co-sponsored by my good friend and colleague, 
Senator Bill Nelson, as well as St. Augustine's Congressman, 
John Mica. So I urge the committee to quickly take up and pass 
this important legislation and help write a new chapter in the 
history of our Nation's founding. Thank you very much, Mr. 
Chairman.
    Senator Akaka. Thank you very much, Senator Martinez. Now 
I'd like to return to the panel and ask Karen Taylor-Goodrich 
for your statement.

STATEMENT OF KAREN TAYLOR-GOODRICH, ASSOCIATE DIRECTOR, VISITOR 
 AND RESOURCE PROTECTION, NATIONAL PARK SERVICE, DEPARTMENT OF 
                          THE INTERIOR

    Ms. Taylor-Goodrich. Thank you, Mr. Chairman. Good 
afternoon, Senator Burr, Senator Martinez. I appreciate the 
opportunity to appear before you on behalf of the Department of 
the Interior and to speak on today's bills.
    We have nine bills that I would like to submit my testimony 
in full for the record. But I'd like to do a quick summary of 
each of these bills, if you may permit me.
    S. 1774 and H.R. 3022 would both designate additional 
wilderness areas in Sequoia National Park and Kings Canyon 
National Park and would name one of the new wilderness areas 
after Mr. John Krebs, a former Member of Congress. The 
Department supports these bills if they are amended in 
accordance with our testimony.
    S. 2255 would amend Section 5C of the National Trails 
System Act directing the Secretary of the Interior to conduct 
studies of the Chisholm Trail and the Great Western Trail in 
order to consider both trails for inclusion in the National 
Trails System. The Department supports S. 2255 with an 
amendment. However we do feel that priority should be given to 
the 38 previously authorized studies that have not yet been 
transmitted to Congress.
    S. 2359 would establish the St. Augustine 450th 
Commemoration Commission that Senator Martinez spoke of. The 
Department has no objection to the concept of an advisory 
commission. But we would like to work with the committee to 
address a few of our suggested amendments and our concerns as 
noted in our full testimony.
    S. 2943 would designate the Pacific Northwest National 
Scenic Trail, an approximately 1,200 mile route from the 
Pacific Ocean and Olympic National Park in Washington to the 
East Side of the Continental Divide in Glacier National Park in 
Montana. The Department does not object to this bill if amended 
to authorize an update to our 30-year-old Pacific Northwest 
Scenic Trail feasibility study. We do feel that's outdated and 
would need to be updated. We believe priority should be given, 
however, to the 38 previously authorized studies that have not 
yet been transmitted to Congress.
    S. 3010 would reauthorize the Route 66 Corridor 
Preservation Program for 10 years from 2009 to 2019. We do not 
have an objection to this bill.
    S. 3017 would designate 11,740 acres, or 16 percent, of 
Pictured Rocks National Lakeshore on Lake Superior in the upper 
peninsula of Michigan as a federally protected wilderness area 
called the Beaver Basin Wilderness Area. The Department 
strongly supports this bill.
    S. 3045 would establish the Kenai Mountains-Turnagain Arm 
National Forest Heritage Area in Alaska. Based on our 
experience over the past 24 years working with our National 
Heritage Area System, we've learned that a critical component 
for this, in order to be successful, would be completion of a 
feasibility study that would evaluate the proposed area against 
the interim criteria before designation.
    We defer to the Department of Agriculture for the official 
position on this legislation. The completion of the Heritage 
Area feasibility study based on that interim criteria would 
allow for an evaluation of the area prior to designation.
    S. 3096 would amend the National Cave and Karst Research 
Institute Act of 1998. The bill would strike a portion of the 
Act that would allow the Secretary of the Interior to spend 
only Federal funds that are matched by an equal amount of funds 
from non-Federal sources. The Department supports this bill if 
amended to retain a requirement that any annual appropriations 
to the Research Institute under this Act would still be subject 
to a non-Federal matching requirement.
    H.R. 1143 would allow the Secretary of the Interior to 
enter into lease with the current holder of the retained use 
estate at Virgin Islands National Park the Caneel Bay property, 
currently operated as a luxury resort, after the termination of 
a retained use estate and donation of all improvements to the 
National Park Service. The Department supports the general 
intent of H.R. 1143 and what it seeks to accomplish.
    However, we would like to suggest a few amendments. We did 
have some success in amending the bill after testifying before 
the House. However, we'd like to work with the committee to 
clarify additional terms and conditions of this proposed lease.
    Mr. Chairman and members, that concludes my statement. I 
would be glad to answer any questions you may have.
    [The prepared statements of Ms. Taylor-Goodrich follow:]

   Prepared Statement of Karen Taylor-Goodrich, Associate Director, 
 Visitor and Resource Protection, National Park Service, Department of 
                              the Interior

                               H.R. 1143

    Mr. Chairman, thank you for the opportunity to provide the 
Department of the Interior's views on H.R. 1143, a bill to authorize 
the Secretary of the Interior to lease certain lands in Virgin Islands 
National Park, and for other purposes.
    The Department previously testified in support of the intent of 
H.R. 1143 before the House Subcommittee on National Parks, Forests and 
Public Lands, on October 30, 2007. After that hearing, H.R. 1143 was 
amended, addressing several of the concerns that the Department raised. 
The Department supports the general intent of H.R. 1143 and what it 
seeks to accomplish. However, we would like the opportunity to work 
with the Subcommittee to clarify some additional terms and conditions 
of the lease.
    H.R. 1143 would allow the Secretary of the Interior to enter into a 
lease with the current holder of a retained use estate at Virgin 
Islands National Park for the Caneel Bay property, which is currently 
operated as a luxury resort, after the termination of the retained use 
estate and donation of all improvements to the National Park Service 
(NPS).
    Without H.R. 1143 the NPS does not have the authority to enter into 
a lease, in accordance with 36 CFR Sec. 18, Leasing of Properties in 
Park Areas, without issuing a Request for Bids or a Request for 
Proposals. A noncompetitive lease could only be issued under two 
circumstances--by issuing the lease to a nonprofit organization or unit 
of government, or by entering into a short-term, 60-day or less lease, 
neither of which would apply in this case.
    Caneel Bay Resort is one of two large resorts on the island of St. 
John. The resort is located on a 150-acre peninsula on the northwest 
side of the island of St. John and caters to an upscale clientele that 
stays an average of 6 nights and 7 days. The resort has approximately 
425 to 450 employees and serves as one of the primary economic engines 
for the U.S. Virgin Islands. A large number of employees travel daily 
to St. John from their residences on neighboring St. Thomas. The resort 
is also an Economic Development Center beneficiary and, as such, 
receives various tax exemptions from the Government of the Virgin 
Islands.
    The resort was established in 1956 by Laurance S. Rockefeller and 
the Jackson Hole Preserve. In 1983, Jackson Hole Preserve donated the 
land at Caneel Bay to the United States Government for inclusion within 
Virgin Islands National Park and reserved the right to continue its 
operations under a retained use estate. Jackson Hole Preserve did not 
convey the improvements on the land to the United States at that time. 
The reserved use estate is scheduled to expire on September 30, 2023. 
The warranty deed stipulates that when the retained use estate 
terminates, the owner of the retained use estate must donate the 
buildings and other improvements to the NPS.
    Enactment of H.R. 1143 would allow the current holder of the 
retained use estate to negotiate a long-term lease with the NPS that 
could extend the Caneel Bay Resort operation well beyond the year 2023. 
Such an extension could allow the leaseholder to secure financing and 
undertake other long-term operational measures that might not be 
possible under the provisions of the current retained use estate.
    The NPS has evaluated various options for the future use and 
management of the Caneel Bay property. Based upon a value analysis, we 
believe that the continued future operation of Caneel Bay as a resort 
under a lease would provide the greatest advantage to the NPS and the 
U.S. Virgin Islands. A lease could provide economic and administrative 
benefits to the NPS and the lessee that are not available or not as 
viable as under a retained use estate or a concession contract, two of 
the other options that were examined.
    H.R. 1143 was amended by the House and requires that the operations 
and maintenance of the resort be conducted in a manner consistent with 
the preservation and conservation of the resources and values of the 
park. Additionally, the lease proposed by the bill would address the 
continued protection, preservation, and restoration of the property's 
structures, many of which are more than 50 years old, and may be 
National Register eligible. Any work conducted on the structures would 
have to be conducted in accordance with the Secretary of the Interior's 
Standards for the Treatment of Historic Properties. The lease also 
would address the fair market value rent of the property, constraints 
on development of property during the term of the lease, and the 
ability to transfer the lease in the future.
    When the current retained use estate was created there were three 
small properties that are integral to the operation of the Caneel Bay 
resort that were not included. We would like to include these 
properties under the terms of the lease. Finally, H.R. 1143 may need to 
be amended to clarify the intent of the bill regarding when the current 
retained use estate would expire and when the new lease would begin, 
the terms and conditions of the lease, and whether or how often the 
property's fair market value rent would be re-assessed. We will be 
happy to work with the Subcommittee to develop these amendments.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or other members might have.

                         S. 1774 AND H.R. 3022

    Mr. Chairman, thank you for the opportunity to appear before you to 
present the views of the Department of the Interior on S. 1774 and H.R. 
3022, bills to designate the John Krebs Wilderness in the State of 
California, to add certain land to the Sequoia-Kings Canyon National 
Park Wilderness, and for other purposes.
    The Department supports H.R. 3022 and S. 1774 if amended in 
accordance with this statement. Both S. 1774 and H.R. 3022 would 
designate additional wilderness areas in Sequoia National Park and 
Kings Canyon National Park, and would name one of the new wilderness 
areas after John Krebs, a former Member of Congress. While we believe 
these designations are appropriate, we would like to work with the 
committee on amendments that would address concerns raised by some of 
the specific provisions in the bills. H.R. 3022, as passed by the House 
of Representatives, addresses many, but not all of our concerns.
    Sequoia National Park, established in 1890, and Kings Canyon 
National Park, established in 1940, have been administered jointly 
since 1943. The California Wilderness Act of 1984 designated about 
723,000 acres in the two parks, or 84 percent of the land base, as the 
Sequoia-Kings Canyon Wilderness. Both bills would designate as 
wilderness virtually all the remaining land in the two parks that is 
appropriate for that designation, adding about 114,488 acres. With this 
legislation, about 97 percent of the land base of the two parks would 
be designated as wilderness.
    The area that the bills propose as the John Krebs Wilderness 
consists of the Hockett Plateau and Mineral King areas of Sequoia 
National Park, and totals about 69,500 acres. The other area, which 
would add about 45,145 acres to the existing Sequoia-Kings Canyon 
Wilderness, consists of lands in and around the North Fork of the 
Kaweah River in Sequoia National Park and the Redwood Canyon/Chimney 
Rock area of Kings Canyon National Park. The lands other than Mineral 
King and Chimney Rock underwent formal wilderness studies in the early 
1970's and are recommended by the National Park Service for wilderness 
designation. The Mineral King and Chimney Rock areas underwent 
wilderness eligibility assessments in 2003 and both were found to have 
characteristics which support their designation as wilderness.
    The Hockett Plateau protects vast rolling forests of lodgepole pine 
surrounding spectacular sub-alpine meadows, and is a favorite 
destination for equestrians, backpackers, and anglers. This area, which 
has been part of Sequoia National Park since the park was established 
in 1890, includes the route of the old Hockett trail that was one of 
the first trans-mountain routes in the southern Sierra Nevada and is 
popular with hikers, fishermen, equestrians and backpackers. The 
Mineral King portion includes much of Mineral King Valley, a striking 
and spectacular example of sub-alpine and alpine environments unlike 
any other in the Sierra Nevada.
    The North Fork Kaweah area includes extensive lower-and mid-
elevation vegetation communities that are rarely represented in Sierra 
Nevada wilderness areas. The area contains foothill oak woodland, 
chaparral, and low-elevation hardwood and conifer forest types. The 
river is an exemplary foothill river with beautiful pools, riparian 
borders, and is rich in wildlife including western pond turtle, bear, 
and mountain lion. The Redwood Canyon area includes all or part of 
eight Giant Sequoia groves including the Redwood Mountain Grove, the 
largest Giant Sequoia grove inside Sequoia and Kings Canyon National 
Parks.
    We believe it is appropriate to name the Hockett Plateau and 
Mineral King area as the John Krebs Wilderness. The National Park 
Service considers it a high honor to be permanently commemorated in a 
national park and seeks to reserve this honor for cases where there is 
a compelling justification for such recognition, as there is here. Mr. 
John H. Krebs, who immigrated to the United States in 1946 and obtained 
his citizenship in 1954, served on the planning commission and the 
board of supervisors for Fresno County through the 1960's and 1970's 
and in the U.S. House of Representatives from 1975-1979. In 1978, he 
secured passage of legislation that transferred management of the 
beautiful Mineral King Valley to the National Park Service. The Valley 
at that time was slated for development as a downhill ski area, and he 
led a hard-fought battle to assure the long-term protection of this 
very special place as a natural area. Mr. Krebs currently resides in 
Fresno.
    We recommend changes to S. 1774 to mirror H.R. 3022, plus several 
additional changes to ensure that the National Park Service is able to 
manage the lands the bills would designate as wilderness consistent 
with the Wilderness Act of 1964 and the California Wilderness Act of 
1984, as explained below.
    First, we recommend that the bills be amended to provide for the 
treatment of roads and development in wilderness that conforms to the 
standard practice used in other wilderness legislation. That would 
require revising the bills' referenced maps in their depiction of the 
wilderness boundary delineated for Mineral King Road and cabins along 
the road. The maps for both H.R. 3022 and S. 1774 show a ``cherry-
stem'' of Mineral King Road, a relatively quiet, 1= lane-wide road, 
with a boundary at up to one-half mile (2,640 ft.) from center line of 
road and from one-quarter to one-half of a mile from cabin 
developments. The National Park Service and other wilderness land 
management agencies primarily use a road corridor exclusion area of 100 
feet off both sides of the center line of a road for major roads, and 
from 100 to 200 feet away from existing developments. The standard road 
corridor exclusion is recognizable on the ground and provides for 
consistent, effective management. It is also the boundary delineation 
guidance that Congress provided in committee report language (House 
Report 98-40) for the Generals Highway, a busy, two-lane-wide paved 
road, when the Sequoia-Kings Canyon Wilderness was established as part 
of the California Wilderness Act of 1984.
    Second, S. 1774 excludes from wilderness designation four check 
dams located in the Hockett Plateau/Mineral King. We prefer that the 
dams be designated as potential wilderness additions, as they are under 
H.R. 3022, rather than be set aside as exclusions. Designation as 
potential wilderness additions would allow Southern California Edison, 
the operator, to continue its hydroelectric power operation as long as 
it wants. However, in the event that the operator of the dams ceases to 
operate them in the future, the National Park Service would have the 
option to convert the area to wilderness through administrative action. 
The designation of ``potential wilderness addition'' has been used in 
the existing Sequoia-Kings Canyon Wilderness and in other wilderness 
areas in similar cases of non-conforming uses.
    Third, Section 4(c)(1) of S. 1774 states that if nonmotorized 
access is not available or time is of the essence, nothing in the Act 
prevents limited motorized access to hydrologic, meteorologic, or 
climatological devices or facilities. The existing Sequoia-Kings Canyon 
Wilderness addresses maintenance and access to these types of devices 
consistent with House Report 98-40. This committee report language 
states that, ``Modifications, relocations, adjustments and maintenance 
of these devices are therefore acceptable, but it should remain an 
objective to minimize any adverse impact of these devices upon 
wilderness resources where possible, especially as improved technology 
(e.g. miniaturization) and other factors permit.'' We prefer the 
language in H.R. 3022, which directs the National Park Service to 
continue managing maintenance and access to these devices and 
facilities consistent with the House Report 98-40, allowing current 
practice to continue throughout both the previously designated 
wilderness areas and the new wilderness areas designated by this bill.
    Fourth, Section 4(c)(2) of S. 1774 and Section 3(d) of H.R. 3022 
address the use of helicopters for the operation and inspection of 
utility facilities. We recommend that these sections be struck, as they 
are unnecessary. The use of helicopters in the vicinity of designated 
wilderness is permitted currently, when conditions warrant, as a means 
of access for inspection and maintenance of hydrometeorological 
facilities, pursuant to the minimum requirement provision of the 
Wilderness Act and also as provided in House Report 98-40.
    Fifth, Sections 4(d)(2) of both S. 1774 and H.R. 3022 address 
nonwilderness activities outside of designated wilderness. We are 
concerned that these sections could affect the National Park Service's 
ability to protect the designated wilderness. Exempting activities 
outside wilderness could affect the National Park Service's ability to 
address noise, pollutants, or other undesirable effects on wilderness 
that come from outside the parks. While we prefer the narrower language 
in H.R. 3022, which focuses on authorized activities by cabin owners in 
the Mineral King Valley area, or the property owners or lessees in the 
Silver City private inholding, to the broader language in S. 1774, we 
recommend that these sections be removed from the bills.
    Sixth, Section 4(e) of both bills states that nothing in the Act 
precludes horseback riding in, or the entry of recreational commercial 
saddle or pack stock into an area that would be designated as 
wilderness under this bill. The intent of this language is unclear and 
has been interpreted several different ways. It appears to limit the 
ability of the National Park Service to manage these operations 
consistent with the park's enabling act as well as the Wilderness Act. 
By not clarifying this language, it could lead to management conflict 
by setting different standards for the previously designated wilderness 
areas and for the new wilderness areas that would be designated by 
these bills. The parks have long recognized and documented that the use 
of pack and saddle stock is an appropriate and historically accepted 
recreational activity in wilderness. The acceptance of this use has 
been reaffirmed in the parks' 2006 General Management Plan. However, we 
strongly believe the National Park Service should retain the ability to 
determine the impacts of these operations on park resources and to take 
actions necessary to regulate their use when resources are being 
adversely affected. The language of Section 4(e) is ambiguous about the 
Secretary's authority and we, therefore, recommend that it be deleted.
    Finally, as technical matters, we note that H.R. 3022 correctly 
refers to the ``Sequoia-Kings Canyon Wilderness,'' the name of the 
existing wilderness area given by that act, and that the maps 
referenced by H.R. 3022 include map numbers in addition to titles and 
dates as is standard practice for legislative maps. We would be happy 
to work with the committee on similar revisions to S. 1774.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions that you may have.

                                S. 2255

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 2255, a bill to amend the National Trails System 
Act to provide for studies of the Chisholm Trail and Great Western 
Trail to determine whether to add the trails to the National Trails 
System, and for other purposes.
    The Department supports S. 2255 with an amendment. However, we feel 
that priority should be given to the 38 previously authorized studies 
for potential units of the National Park System, potential new National 
Heritage Areas, and potential additions to the National Trails System 
and National Wild and Scenic River System that have not yet been 
transmitted to the Congress. We estimate the cost of this study to be 
approximately $250,000 to $300,000.
    S. 2255 would amend Section 5(c) of the National Trails System Act 
by directing the Secretary of the Interior (Secretary) to conduct 
studies of the Chisholm Trail and the Great Western Trail for 
consideration of both trails for inclusion in the National Trails 
System. As a part of the study, the Secretary shall identify the point 
at which both the Chisholm and Great Western Trails originated south of 
San Antonio Texas. The bill also states that land for the trails may 
not be acquired outside the boundaries of any federally administered 
area without the consent of the owner.
    A network of scenic and historic trails has been created since the 
enactment of the National Trails System Act in 1968. These trails 
provide for outdoor recreation needs and the enjoyment and appreciation 
of historic resources, which in turn, promotes good health and well-
being. They traverse resources that connect us to history and provide 
an important opportunity for local communities to become involved in a 
national effort by encouraging public access and citizen involvement. 
The importance of trails to Americans is evident, as was witnessed in 
the recent celebration of National Trails Day.
    During the cattle drive era, in the decades following the Civil 
War, it is estimated that approximately ten million Longhorn cattle 
were driven out of Texas to railheads in Missouri and Kansas. Two of 
the largest trails that were used were the Chisholm Trail and the Great 
Western Trail.
    The route of earlier trails that went from Texas to Missouri was 
found to be undesirable due to heavily forested territory that the 
trails passed through and the presence of bandits, mob violence, and 
lawlessness.
    In 1867, Joseph McCoy convinced railroad executives to extend the 
rail line to the eastern prairies of Kansas. Stockyards were completed 
at what was then a small town called Abilene. The trail with its feeder 
trails that led to Abilene became known as the Chisholm Trail and in 
1871 more than 1.4 million cattle had been herded along this trail.
    As the railroads continued to press on across Kansas, the terminus 
of the cattle trails also moved west. Due to the panic of 1873, 
construction stopped for three years at Dodge City, Kansas. In 1876, a 
new cattle trail was blazed to Dodge City that became known as the 
Great Western Trail. This trail was twenty to thirty days shorter than 
the Chisholm Trail and contained ample water and grass. While the two 
trails were in use, four million cattle were driven from Texas to 
Abilene along the Chisholm Trail and five million to Dodge City along 
the Great Western Trail.
    In 1975, the Bureau of Outdoor Recreation completed a study 
entitled ``Old Cattle Trails of the Southwest, a National Scenic Trail 
Study.'' In that study, several trails were examined, including the 
Chisholm and Great Western Trails. The study determined that the two 
trails did not meet the criteria for establishment as National Scenic 
Trails. However, the study recommended that the trails should be 
reassessed as possible National Historic Trails.
    The Department recommends that Section 3 of the bill be deleted. 
Since this legislation only authorizes a study of the potential 
national historic trails, there is no possibility of land acquisition 
while the study is being completed.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or other members of the 
subcommittee might have.

                                S. 2359

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to present the views of the 
Department of the Interior on S. 2359, a bill to establish the St. 
Augustine 450th Commemoration Commission, and for other purposes. The 
Department has no objection to the concept of an Advisory Commission 
but we would like to work with the Committee to address a few suggested 
amendments and concerns with this bill as noted in the testimony.
    St. Augustine, Florida is the oldest European city in the United 
States. The area was first visited by Ponce de Leon in 1513, but it was 
Pedro Menendez de Aviles, who on September 8, 1565, established the 
first settlement. This came 21 years before the English settlement at 
Roanoke Island in Virginia Colony, and 42 years before the successful 
settlements of Santa Fe, New Mexico, and Jamestown, Virginia. In 1586, 
St. Augustine was attacked and burned by Sir Francis Drake. In 1668, it 
was plundered by pirates and most of the inhabitants were killed. In 
1702 and 1740, it was unsuccessfully attacked by British forces from 
their new colonies in the Carolinas and Georgia. The most serious of 
these came in the latter year, when James Oglethorpe of Georgia allied 
himself with the Alachua band of the Seminole tribe and conducted the 
Siege of St. Augustine during the War of Jenkin's Ear. Although 
initially repulsed at St. Augustine, the forces under Oglethorpe 
defeated the Spanish counter-attack at the Battle of Bloody Marsh on 
St. Simons Island, one of the Sea Islands of Georgia.
    The British ultimately gained control of St. Augustine in 1763 and 
it remained loyal to Britain during the Revolutionary war. It was 
briefly returned to the Spanish in 1784 because of a provision of the 
Treaty of Paris. The Spanish who had left during British control came 
back and tried to return the city to its former appearance but were 
thwarted by the decline of Spanish fortunes everywhere.
    The Spanish sold Florida to the United States of America in 1821. 
St. Augustine prospered during the Seminole war of the 1830s due to its 
military involvement in the war. The city eventually developed good 
road systems and the population grew. In 1883, oil tycoon and Florida 
railroad pioneer Henry Flagler visited the city. He was so impressed 
that he invested in St. Augustine's restoration and development of the 
city as a winter resort. Flagler contributed some of the city's 
grandest architecture, such as the Alcazar hotel (now the Lightner 
Museum), and the Ponce de Leon Hotel (now Flagler College). Today, the 
heart of St. Augustine retains the distinctive plan of a 16th century 
Spanish Colonial walled town, much of which has been preserved or 
restored. The numerous remaining colonial buildings in the historic 
district present an impressive array of architecture from 1703 to 1898.
    The National Park Service preserves, maintains, and interprets the 
Castillo de San Marcos National Monument, an imposing star-shaped 
citadel that dominates the landscape in the center of the historic area 
of St. Augustine. The Service also preserves the related coquina 
watchtower known as Fort Matanzas National Monument near the Matanzas 
Inlet approximately 14 miles south of the Castillo. The State of 
Florida, the city of St. Augustine, and the University of Florida 
collectively own and operate additional significant resources related 
to the history of St. Augustine.
    S. 2359 and an identical bill in the House of Representatives, H.R. 
4258, would establish a 16-member commission to include one employee of 
the National Park Service having experience relevant to the historic 
resources relating to the city of St. Augustine and its commemoration, 
the Mayor of St. Augustine or the Mayor's designee, one employee of the 
State University System of Florida, and five nonresidents of the State 
of Florida who have an interest in, support for, and expertise 
appropriate to the commemoration. The commission members would be 
appointed by the Secretary of the Interior based, in part, on 
recommendations of the St. Augustine City Commission, the Governor of 
Florida, and the Congress.
    The duties of the Commission would include:

          1) the planning, development, and execution of programs and 
        activities appropriate to commemorate the 450th anniversary of 
        the founding of St. Augustine, Florida;
          (2) the general facilitation of St. Augustine commemoration-
        related activities throughout the United States;
          (3) the encouragement of civic, patriotic, historical, 
        educational, religious, economic, and other organizations 
        throughout the United States to organize and participate in 
        anniversary activities to expand understanding and appreciation 
        of the significance of the founding and continuing history of 
        St. Augustine;
          (4) coordination and facilitation of scholarly research on, 
        publication about, and interpretation of, St. Augustine for the 
        education of the public; and
          (5) the assurance that the 450th anniversary of St. Augustine 
        provides a lasting legacy and long-term public benefit for the 
        United States by assisting in the development of appropriate 
        programs and facilities to accommodate those programs.

    The Department does have four suggested amendments for S. 2359.
    First, we suggest that Section 2(b)(4) (Purpose) be revised to 
include a specific reference to the experiences of Native Americans as 
follows: ``(4) assist in ensuring that the St. Augustine 450th 
anniversary observances are inclusive and appropriately recognize the 
experiences of all peoples in St. Augustine's history, including 
indigenous peoples who inhabited the area prior to the Spanish arrival 
and certain western tribes who were incarcerated at the Castillo (then 
known as Fort Marion) during America's westward expansion in the late 
19th century''.
    Second, we recommend amending section 6 to include two additional 
members, after the Secretary receives recommendations from the 
leadership of the Seminole and Miccosukee tribes of Florida.
    Third, we are concerned that the designation of some specific 
members of the commission may not be in conformance with the 
Appointments Clause of the Constitution. We would like to work with the 
committee to revise the language to address this concern.
    Fourth, we recommend that the duties of the Commission be limited 
to serving in an advisory capacity and leaving the execution of 
programs and activities to Federal agencies under existing authorities.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or any members of the Subcommittee 
may have.

                                S. 2943

    Mr. Chairman, thank you for the opportunity to appear before the 
committee today to present the views of the Department of the Interior 
on S. 2943, a bill to amend the National Trails System Act by 
designating the Pacific Northwest National Scenic Trail as a component 
of the National Trails System.
    The Department does not object to S. 2943 if amended to authorize 
an update to the nearly 30-year-old Pacific Northwest Scenic Trail 
feasibility study. However, we believe that priority should be given to 
the 38 previously authorized studies for potential units of the 
National Park System, potential new National Heritage Areas, and 
potential additions to the National Trails System and National Wild and 
Scenic River System that have not yet been transmitted to the Congress.
    S. 2943 would designate an approximately 1200-mile trail route from 
the Pacific Ocean in Olympic National Park, Washington, to the east 
side of the Continental Divide in Glacier National Park, Montana as the 
Pacific Northwest National Scenic Trail. S. 2943 assigns responsibility 
for administering the trail to the Secretary of the Interior.
    In 1977, Congress authorized a study to determine the feasibility 
and desirability of constructing the Pacific Northwest National Scenic 
Trail (Public Law 94-527). The study was initiated in 1978 and 
completed in 1980, and conducted jointly by the National Park Service 
and the U.S. Forest Service. The study evaluated four alternatives and 
three potential trail corridors, and concluded that a Pacific Northwest 
Trail would have the scenic and recreational qualities needed for 
designation as a National Scenic Trail, noting that the trail ``would 
cross some of America's most breathtaking and varied landscapes.'' 
However, the study concluded that its construction was neither feasible 
nor desirable. This conclusion was based on concerns with the cost of 
land acquisition and construction, a perception that there were already 
adequate trails available in the area, and concerns about the trail's 
potential impact on grizzly bear habitat and fragile high-elevation 
areas.
    In spite of the study's conclusions, trail supporters moved forward 
with the creation of the Pacific Northwest Trail and established a 
private volunteer organization, the Pacific Northwest Trail Association 
(Association), to build, maintain, and promote the trail. The 
Association informs us that trail construction has been completed on 
approximately 950 miles of the proposed 1,200 mile route. According to 
the Association, an estimated 59% of the proposed Pacific Northwest 
National Scenic Trail is on National Forest land in seven National 
Forests, 20% in on National Park Service land in three National Parks, 
10% is on state-owned land, 6% on city and county-owned land, and 5% on 
privately owned land. Much of the trail route on federal land is in 
Congressionally designated wilderness. The segments of the Pacific 
Northwest Trail in Olympic National Park, North Cascades National Park, 
and Glacier National Park have been designated as National Recreation 
Trails under the National Trails System Act.
    We recommend that S. 2943 be amended to authorize an update to the 
1980 feasibility study and that this update be conducted jointly by the 
U.S. Forest Service and the National Park Service. This update is 
necessary because so much has changed since the 1980 feasibility study 
that the study's conclusions merit revisiting. A route for the trail 
has been selected and much of the trail has been constructed. The route 
that S. 2943 would designate as the Pacific Northwest National Scenic 
Trail was not studied in the 1980 study, although it is similar to one 
of the routes studied. An updated feasibility study would allow the 
agencies to consult the public as well as the states, counties, 
municipalities and private landowners who own portions of the 
underlying route, and complete an analysis under the National 
Environmental Policy Act. An updated feasibility study would also allow 
the agencies to revise cost estimates, evaluate management strategies 
and responsibilities, and evaluate how trail designation might impact 
wilderness values through Congressionally designated wilderness areas.
    We anticipate that an updated feasibility study would cost 
approximately $250,000-$500,000 and would be completed 3 years after 
funds are made available.
    Section 5 (b)(7) of the National Trails System Act (16 U.S.C. 1244) 
states that feasibility studies should identify the proposed Federal 
administering agency, ``which in the case of a national scenic or 
national historic trail wholly or substantially within a national 
forest, shall be the Department of Agriculture.'' For this reason we 
recommend that if the committee moves forward with designation, the 
bill should be amended to assign trail administration to the Secretary 
of Agriculture.
    This concludes my prepared remarks, Mr. Chairman. I will be happy 
to answer any questions you or other committee members may have 
regarding this bill.

                                S. 3010

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 3010, a bill to reauthorize the Route 66 
Corridor Preservation Program.
    The Department has no objection to S. 3010, which would amend 
Public Law 106-45 to extend the time period for the expenditure of 
authorized appropriations for ten years from 2009 to 2019.
    Route 66 charts a nationally significant path of 20th-century 
American history. The promise of free land and economic opportunity 
drew thousands of Americans westward on the Oregon, California and 
Santa Fe trails during the 19th-century. A century later, those rutted 
corridors yielded to smoother, faster highways. Foremost among those 
early ribbons of asphalt was U.S. Highway 66, popularly known as Route 
66.
    It is ironic that Route 66's success led to its own demise. As 
Americans of the Baby Boom era became increasingly mobile, this two-
lane road could not handle the booming rise in car and truck traffic. 
The interstate highway system, with its wide and divided pavement, 
became the new and improved way to cross the continent by land. 
However, Route 66 remains embedded in the scenic landscape and in the 
minds of so many Americans who traveled it or came to know it through 
its iconic depictions in American popular culture.
    Public Law 106-45 directs the National Park Service (NPS) to 
develop guidelines, provide technical assistance and matching grants 
for State, local and private preservation efforts, serve as a 
clearinghouse for communication, and help states determine ways to 
continue the program after federal support ends. This led to the Route 
66 Corridor Preservation Program, administered by the NPS, to help 
local, State, Tribal and federal agencies, nonprofits, and individuals 
set preservation priorities. Partners now include individuals, business 
owners, State Historic Preservation offices, Scenic Byway and Main 
Street programs, Route 66 groups, departments of transportation, tribal 
agencies, environmental protection agencies, The National Trust for 
Historic Preservation, and others.
    Matching grants, technical assistance and clearinghouse services 
help with historic preservation, research, oral history, 
interpretation, and educational outreach. In addition, collaboration 
and partnerships help stimulate business and economic growth and 
community revitalization across the eight states and 36 congressional 
districts through which Route 66 passes. Grants are awarded in an 
annual competitive cycle. Special projects also are undertaken 
according to need and available resources. Public Law 106-45 authorized 
up to $10 million over 10 years for program work. In FY08, about 
$300,000 was appropriated.
    In 2007, Route 66 was put on most-endangered-places lists by the 
World Monuments Fund, the National Trust for Historic Preservation, and 
at least two state preservation organizations. Momentum continues to 
grow at grassroots and governmental levels, boosting awareness of Route 
66's significance and the need to save it as a part of 20th-century 
American history.
    The partners of the Route 66 Preservation Program have expressed 
gratitude for the Federal government's support, which has triggered 
interest from other local governments, nonprofits, and individuals to 
supplement and boost those funds, thus increasing preservation efforts 
in the Route 66 corridor.
    The partners and individuals who share interest in the Route 66 
historic corridor believe reauthorization of Federal support is vital 
to preserving the historic roadway. The Administration has no objection 
to reauthorization of continued federal funding, subject to NPS 
priorities and the availability of appropriations.
    Mr. Chairman, this concludes my prepared remarks. I would be happy 
to answer any questions you or any other members of the subcommittee 
may have.

                                S. 3017

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 3017, a bill to designate the Beaver Basin 
Wilderness at Pictured Rocks National Lakeshore in the State of 
Michigan. The Department strongly supports enactment of S. 3017. The 
Administration transmitted a similar proposal to Congress on May 8, 
2008.
    S. 3017 would designate 11,740 acres, or 16 percent of Pictured 
Rocks National Lakeshore in Michigan's Upper Peninsula as federally 
protected wilderness. It defines the boundary of the wilderness area as 
the line of demarcation or the point on the bank or shore at which the 
surface waters of Lake Superior meet the land or sand beach. Management 
of the wilderness area would be in accordance with the 1964 Wilderness 
Act (16 U.S.C. 1131 et seq.).
    Pictured Rocks National Lakeshore was authorized in October, 1966 
as America's first National Lakeshore ``to preserve for the benefit, 
inspiration, education, recreational use, and enjoyment of the public a 
significant portion of the diminishing shoreline of the United States 
and its related geographic and scientific features.''
    The park extends over 40 miles along the southern shore of Lake 
Superior, the largest and cleanest of our Great lakes. It is the 
largest freshwater lake in the world and contains approximately 10 
percent of the planet's surface supply of fresh water. The National 
Lakeshore protects and preserves superlative scenic and recreational 
resources including fifteen miles of spectacular multi-colored 
sandstone cliffs that rise over 200 feet above Lake Superior; miles of 
beautiful white sand beaches and numerous backcountry lakes, streams 
and waterfalls; five square miles of perched sand dunes that rise as 
high as 300 feet; important wetlands, and a upland beech-maple Northern 
Hardwood Forest. This landscape is home to timber wolf, moose, black 
bear, deer, fisher and marten, raptors and many species of songbirds. 
Federally threatened and endangered species include the Piping Plover 
and Pitcher's Thistle as well as several state listed species.
    The park includes historic U.S. Life Saving, Lighthouse Service, 
and Coast Guard facilities. Many of these facilities including the Au 
Sable Light Station, a majestic lighthouse and keeper's quarters that 
dates to 1874, remain open for public enjoyment. There are also 
remnants and active interpretation of historic mining activity, white 
pine and hardwood logging, and commercial fishing.
    The park operates three drive-in campgrounds, over 100 miles of 
backcountry trails, and 14 backcountry camping areas. It receives over 
425,000 visitors each year who enjoy commercial boat cruises to view 
the Pictured Rocks cliffs and underwater shipwrecks, hiking, camping, 
backpacking, hunting, fishing, bird watching, kayaking, cross-country 
skiing, snowshoeing, snowmobiling, ice climbing and more. The National 
Park Service (NPS) estimates that the presence of the National 
Lakeshore brings nearly $20 million of economic benefit to the local 
community each year. Native American use of the area extends some 4,000 
years into the past and is represented today by the Sault Ste. Marie 
Tribe of Chippewa Indians, the nation's second largest tribe. Nothing 
in S. 3017 would modify, alter, or affect any treaty rights.
    The park encompasses a total of 73,235 acres, managed in two zones: 
(1) the Shoreline Zone, 33,929 acres owned in fee simple by the NPS, 
and (2) the Inland Buffer Zone, 39,306 acres of mixed ownership, where 
sustained yield timber harvests and other residential and commercial 
activities are permitted by the park's enabling legislation. Pictured 
Rocks is the only unit of the National Park System with a legislated 
buffer zone.
    The Beaver Basin portion of the park, including the entire proposed 
11,740-acre wilderness area, has been managed as a backcountry/
wilderness area, or a ``Primitive Management Prescription'', since the 
first comprehensive General Management Plan (GMP) was published in 
1981. Since that time, motor vehicles have been prohibited in this 
portion of the park. Also, for over 25 years, this area has provided 
outstanding recreational opportunities for hikers, backpackers, 
anglers, boaters and hunters (allowed in accordance with State 
regulations). A network of hiking trails and designated campsites will 
continue to be maintained in this portion of the park, even with 
wilderness designation. Since formal wilderness designation would not 
change the way in which visitor use is currently managed in this 
portion of the park, there is no reason to believe it would have any 
detrimental impact on visitation or the local economy.
    The proposed wilderness area does not include Little Beaver Lake, 
Little Beaver Lake Campground, the campground access road corridor, and 
the access road to the Beaver Basin Overlook. Although the National 
Lakeshore boundary extends one-quarter mile out into Lake Superior, 
none of the waters of Lake Superior are proposed as wilderness. S. 3017 
would authorize the use of boats powered by electric motors on Little 
Beaver and Big Beaver Lakes as well as the use of motors on the surface 
water of Lake Superior adjacent to the wilderness and beaching of those 
boats at the line of demarcation, subject to applicable laws. This is 
to ensure continued access by boaters to the shoreline beach adjacent 
to the wilderness area. This has been an area of significant public 
concern.
    Designation of the Beaver Basin Wilderness Area will not limit 
public access to this area or change the way this portion of the park 
is currently being managed for public use and enjoyment. County Road H-
58, the dirt and gravel primary access road to and through the National 
Lakeshore, is scheduled to be reconstructed and paved within the next 
two years. While the NPS supports this upgrade and improved access, we 
anticipate it will lead to increases in both overall park visitation 
and development outside the park as well as impacts to front and 
backcountry resources. Permanent wilderness designation in the Beaver 
Basin area will ensure protection of significant ecological resources 
and wilderness values along with solitude, quiet, and unconfined 
recreation for this and future generations in this portion of the 
National Lakeshore.
    Between 1999 and 2004, the NPS developed an updated GMP for the 
park. In compliance with law and NPS policy, a formal Wilderness Study 
was conducted as part of this comprehensive planning effort. During the 
Wilderness Study, 18,063 acres within the Lakeshore were identified as 
being potentially eligible for wilderness designation (12,843 acres in 
Beaver Basin and 5,220 acres in the Chapel Basin area of the park). All 
of the lands and waters in the study area are in fee-simple Federal 
ownership within the Shoreline Zone of the park. After extensive public 
involvement, review, and comment, including overwhelming public support 
for this wilderness designation, the preferred alternative in the final 
GMP/Wilderness Study was approved by the Midwest Regional Director on 
November 23, 2004. The final GMP/Wilderness Study does not propose 
wilderness in the Chapel Basin area of the Lakeshore. Also, the removal 
of the one-quarter mile strip of surface water from the proposed 
wilderness resulted in the reduction of proposed acres from 12, 483 to 
11,740 in the Beaver Basin area.
    Passage of S. 3017 would support the overarching concept in the new 
GMP for Pictured Rocks National Lakeshore, which is to provide 
additional and more convenient access to significant lakeshore features 
on the east and west ends of the park and to preserve the central 
portion of the national lakeshore in a primitive, relatively 
undisturbed state.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other committee members might have.

                                S. 3045

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 3045, a bill to establish the Kenai Mountains-
Turnagain Arm National Forest Heritage Area in the State of Alaska.
    Similar legislation has passed the Senate in earlier Congresses and 
a small, grassroots organization in Alaska has continued to be an 
articulate advocate for this proposal. In these earlier bills, the 
National Park Service (NPS) and the Secretary of the Interior were the 
principal federal government partners; in S. 3045, the U.S. Forest 
Service and the Secretary of Agriculture would be given that role.
    Based on our experience over the past 24 years working with 
National Heritage Areas, the NPS has learned that a critical component 
for success is the completion of a feasibility study that evaluates a 
proposed area against interim criteria before designation. A study 
should be prepared that demonstrates evidence of place-based resources 
that tell a nationally important story, that has the support and 
involvement of the local community, and that evaluates the commitment 
and financial capability of the local coordinating entity and partners 
to carry out the approved management plan for the heritage area. 
Studies that were done for the designation of the Iditarod National 
Historic Trail and the Seward Highway National Scenic Byway have 
confirmed the national importance of the region; however, they were 
undertaken before generally accepted criteria for designating heritage 
areas had been established, and were directed at a smaller region than 
the area encompassed by this bill. While we defer to the Department of 
Agriculture for the official position on this legislation, the 
completion of a heritage area feasibility study, based on interim 
criteria used for similar studies, would allow for evaluation of the 
area prior to designation. The Department of the Interior is willing to 
provide advice or assistance to the Department of Agriculture in the 
completion of a study that meets applicable standards for other 
heritage areas and provides Congress with the necessary information and 
assessment upon which to base its decision regarding designation in the 
future.
    With 40 National Heritage Areas designated across 28 states, and 
more heritage area legislative proposals forthcoming, the 
Administration believes it is critical for Congress to enact National 
Heritage Area program legislation. This legislation would provide a 
much-needed framework for evaluating proposed National Heritage Areas, 
offering guidelines for successful planning and management, clarifying 
the roles and responsibilities of all parties, and standardizing 
timeframes and funding for designated areas. Program legislation would 
also clarify the expectation that Heritage Areas would work toward 
self-sufficiency by outlining the necessary steps, including 
appropriate planning, to achieve that goal.
    We would note that the majority of the acreage in the proposed 
Kenai Mountains-Turnagain Arm National Forest Heritage Area is under 
U.S. Forest Service management. The park contributes to the themes 
noted in the Section 1 of the legislation, particularly with regard to 
recreational resources, history, natural landscapes, and climate 
change.
    If the Committee chooses to move forward with this bill, the 
Department would recommend that the bill be amended to include an 
additional requirement for an evaluation to be conducted by the 
Secretary of Agriculture, three years prior to the cessation of federal 
funding under this act. The evaluation would examine the 
accomplishments of the heritage area in meeting the goals of the 
management plan; analyze the leveraging and impact of investments to 
the heritage area; identify the critical components of the management 
structure and sustainability of the heritage area; and recommend what 
future role, if any, the Forest Service should have with respect to the 
heritage area. We would recommend also that the Subcommittee make the 
appropriations language in Section 9 consistent with other recent 
National Heritage Area bills.
    Should S. 3045 be enacted, the NPS looks forward to working with 
both the U.S. Forest Service and the local coordinating entity as a 
management plan and other provisions are carried out. We would be happy 
to share what may be applicable lessons learned from working with the 
other 37 heritage areas in 27 states that Congress designated prior to 
this year.
    Mr. Chairman, this concludes my prepared remarks. I would be happy 
to answer any questions that you or other members of the subcommittee 
may have.

                                S. 3096

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 3096, a bill to amend the National Cave and 
Karst Research Institute Act of 1998 to authorize appropriations for 
the National Cave and Karst Research Institute.
    The Department supports S. 3096 if amended to retain a requirement 
that any annual appropriations to the National Cave and Karst Research 
Institute under this Act would still be subject to a non-federal 
matching requirement. S. 3096 would amend The National Cave and Karst 
Research Institute Act of 1998, Public Law 105-325, by striking the 
portion of the Act that allows the Secretary of the Interior 
(Secretary) to spend only those federal funds that are matched by an 
equal amount of funds from non-federal sources.
    Public Law 105-325 directed the Secretary to establish the National 
Cave and Karst Institute near Carlsbad, New Mexico. The National Park 
Service (NPS) was directed to administer the Institute with one or more 
partners. The purposes of the Institute are to further the science of 
speleology, to encourage and provide public education, and to promote 
environmentally sound cave and karst management. An interim Director 
was first named in 2000 and the Institute now has a permanent Director 
and facilities.
    Since the Institute was established, it has suffered from a 
provision in Public Law 105-325 that specifies that in operating the 
Institute, the Secretary may spend only an amount of federal funds that 
are matched by funds from non-federal sources. Federal funds have been 
interpreted to mean not only funds that are appropriated to the NPS, 
but also funds appropriated to other federal agencies and quasi-federal 
agencies.
    This provision has had a chilling affect on the ability of the 
Institute to partner and collaborate on mutually beneficial projects 
and initiatives with federal agencies. Because of the matching fund 
language, the Institute has not submitted grant proposals to partner on 
cave and karst projects with the National Science Foundation, the 
National Aeronautics and Space Administration, the National Institute 
of Health, or the Department of Energy. The Institute has been advised 
that if it were successful in obtaining a grant from one of these 
agencies, it would need to find matching, non-federal monies before 
being able to accept and spend the federal funds.
    The matching funds provision also appears to present a disincentive 
for federal agencies to partner with the Institute because of federal 
fiscal year spending limitations coupled with the additional time and 
lack of predictability associated with the Institute's ability to 
secure non-federal matching funds. As a result, opportunities to engage 
in mutually beneficial projects have been passed up to the detriment of 
the Institute and the federal agencies.
    Mr. Chairman, this concludes my prepared remarks. I would be happy 
to answer any questions you or other members of the subcommittee might 
have.

    Senator Akaka. Thank you very much for your statement. Now 
we will hear from Mr. Jon Knechtel, the Acting Executive 
Director.

STATEMENT OF JON KNECHTEL, DIRECTOR OF TRAIL MANAGEMENT/ACTING 
EXECUTIVE DIRECTOR, PACIFIC NORTHWEST TRAIL ASSOCIATION, SEDRO-
                          WOOLLEY, WA

    Mr. Knechtel. Mr. Chairman and members of the subcommittee 
it's truly an honor to appear before you today. My name is Jon 
Knechtel. I am the Director of Trail Management and the Acting 
Executive Director of the Pacific Northwest Trail Association. 
I am here today as a designee of all of our members, 
volunteers, partners and students who have kept alive the 
vision of the trail, the Pacific Northwest Trail.
    To testify before a Senate committee is a rare opportunity 
for any citizen. I'm extremely grateful to Chairman Akaka for 
the invitation to be here today. When President Lyndon Johnson 
signed the National Trails Act legislation in 1968 and the 
Appalachian and Pacific Crest Trails became our first two 
National Scenic Trails. Those people who were avid through 
hikers and explorers of new territories envision a network of 
trails crisscrossing the United States.
    One such visionary was a young college student from 
Georgetown University named Ron Strickland. In 1971 and on 
through the early 1970s he and some of his friends would spend 
their winter months pouring over available maps of the Pacific 
Northwest. Summers were then spent hiking segments of what was 
to become the PMT.
    By 1977 segments have been put together. Ron and his hiking 
friends have hiked these segments. The trail was born along 
with the non-profit organization that bears its name.
    A feasibility study was completed in 1980 on the PMT. 
Though it met all the criteria that a National Scenic Trail 
needs, the cost of implementing the trail was astronomical, 
around 95 million dollars. Much of this cost was intended to 
acquire a wide right-of-way for the Trail.
    Since that time much of the route of the Trail on lands 
that were not in public ownership have been acquired by cities 
and counties that the Trail passes through. Also at that time 
the feasibility study was done commercial use of our National 
Forest was in full swing. The opportunity cost of removing 
these lands from the timber base was high.
    Since the early 1980s commercial forest use has dwindled. 
Numerous new wilderness areas have been designated along with 
the course of the trail or the route of the trail. Today the 
majority of the trail is protected by its very location.
    Sections of the trail in the lower elevation areas often 
employ the use of old rail corridors. Many of these corridors 
have been acquired over the last two decades by local 
municipalities and converted to trail. There are still areas 
where the trail crosses the State or private land where 
commercial use still takes place. The PMT has worked very 
diligently over the years to work with and not impede the 
various guidelines under which these lands are managed.
    The PMT has a conglomerate of trail types under the 
recreational opportunity spectrum. There are rural-urban 
trails, front country trails, back country trails and 
wilderness trails. There are sections of the trail that only 
receive 50 to 100 hikers a year. While others sections like 
Deception Pass State Park in Washington receive over three 
million. Almost all of who have set foot on the PMT.
    There are sections of trail where use may be restricted to 
protect threatened and endangered animal species such as the 
Grizzly bear or Woodland Caribou. Maximum group size is 
restricted in Federal wilderness areas and limited entry 
permits are required in some sections. Illegal use by off 
highway vehicles is still a problem on some sections of the 
trail. The PMT is and always should be a hiker, equestrian and 
where permitted bicycle trail.
    You know the Department of Interior under the National 
Trail System Act has designated the PMT segments through North 
Cascades National Park, Olympic National Park and Glacier 
National Park as National Recreation Trail, a total of 254 
miles. Under the Clinton Administration the entire PMT was 
named a millennium trail. These are all great accolades. 
However, the vision of those who have been involved with PMT is 
to someday see it become a National Scenic Trail. Over the last 
30 years since the PMTA was founded more than 131,000 hours of 
labor on the trail have taken place for the benefit of to our 
agency partners of over one and a half million dollars.
    That's the extent of my testimony. Thank you, chairman.
    [The prepared statement of Mr. Knechtel follows:]

Prepared Statement of Jon Knechtel, Director of Trail Management/Acting 
Executive Director, Pacific Northwest Trail Association, Sedro-Woolley, 
                                   WA

    Mr. Chairman and members of the subcommittee, it is truly an honor 
to appear before you today. My name is Jon Knechtel and I am the 
Director of Trail Management and Acting Executive Director of the 
Pacific Northwest Trail Association (PNTA). I am here today as the 
designee of all of our members, volunteers, partners, and students who 
have kept alive the dream of the Pacific Northwest Trail (PNT). To 
testify before a Senate committee is a rare opportunity for any 
citizen, and I am extremely grateful to Chairman Akaka for the 
invitation to be here today.
    When President Johnson signed the National Trails System 
legislation in 1968, and the Appalachian and Pacific Crest Trails 
became our first two National Scenic Trails, those people who were avid 
through-hikers and explorers of new territory envisioned a network of 
trails crisscrossing the United States. One such visionary was a young 
college student from Georgetown University named Ron Strickland. In 
1971, and on through the early 1970's, he and some of his friends would 
spend their winter months pouring over available maps of the Pacific 
Northwest, summers were then spent hiking segments of what was to 
become the PNT. By 1977 segments had been put together, Ron and his 
hiking friends had hiked these segments and the trail was born, along 
with the association that bears its name.
    A feasibility study was completed in 1980 on the PNT, and though it 
met all the criteria that a National Scenic Trail needs the cost of 
implementing the trail was astronomical, around $95 million dollars. 
Much of this cost was intended to acquire a wide right-of-way for the 
Trail. Since that time much of the route of the Trail on lands that 
were not in public ownership has been acquired by the cities and 
counties that the Trail passes through. Also, at the time the 
Feasibility Study was done, commercial use of our national forests was 
in full swing and the opportunity cost of removing these lands from the 
timber base was high. Since the early eighties, commercial forest use 
has dwindled, and many new wilderness areas have been designated along 
the route of the Trail. Today the majority of the trail is protected by 
its very location. Sections of the Trail, in the lower elevation areas, 
often employ the use of old rail corridors. Many of these corridors 
have been acquired over the last two decades by local municipalities 
and converted to trail. There are still areas where the trail crosses 
state or private land where commercial use still takes place. The PNTA 
has worked very diligently over the years to work with and not impede 
the various guidelines under which these lands are managed. Adopt-a-
Trail agreements are in place with the Washington State Department of 
Natural Resources (as well as a Land-use Agreement) and the Washington 
State Parks, through which the trail goes. Land-use Agreements are in 
place with some of the private landowners and these continue to be 
obtained as needed. Help and support by the Pacific Northwest Trail 
Association for land purchases and exchanges for the trail and 
trailheads have been negotiated with cities and counties along the 
trail, as well as with federal land managers.
    The PNT is a conglomerate of trail types under the Recreational 
Opportunity Spectrum (ROS). There are rural-urban trails, front country 
trails, back country trails, and wilderness trails. There are sections 
of the trail that only receive 50-100 hikers per year, while other 
sections (like Deception Pass State Park) receive over 3 million 
visitors per year, most of whom set foot on the PNT. There are sections 
of the trail where use may be restricted to protect Threatened or 
Endangered animal species such as the Grizzly Bear or Woodland Caribou. 
Maximum group size is restricted in federal wilderness areas and 
limited entry permits are required in some sections. Illegal use by Off 
Highway Vehicles (ORVs) is a problem on some sections of the Trail. The 
PNT is, and should always be a hiker, equestrian, and where permitted, 
bicycle trail. Existing trail management objectives set forth by the 
governing agencies or land owners will govern the maintenance and use 
of the PNT. Trails will not be upgraded to meet a minimum PNT 
``standard'', as is the case for the Pacific Crest National Scenic 
Trail. Changes in management direction would be done on a case by case 
basis, based on other recreational management objectives, with the 
caveat that the trail use remains non-motorized.
    When I first became an employee of the PNTA in late 2003 (having 
been a board member for three years prior to my retirement from 
Weyerhaeuser Corporation), my first job was to travel the trail, meet 
with all my partners and the agencies through which the trail 
traverses. There were many issues that were brought forth by the 1980 
study that I personally wanted to rectify if at all possible without 
jeopardizing the scenic beauty and wild places through which the trail 
passed. Starting in Glacier National Park, the Flathead, Kootenai, 
Idaho Panhandle, Colville, Okanogan National Forests, North Cascades 
National Park, the Mt. Baker-Snoqualmie, the Olympic National Forests, 
and the Olympic National Park, I met with the recreational staff from 
each park, forest, or district and asked the same questions. What are 
the concerns? Because there are hikers hiking the trail, whether you 
recognize it or not, where would you like to see them hike? I talked 
with local groups who used trails in their areas and relied on their 
expertise to determine the most feasible routes for the Trail. By doing 
these things, all but one bushwhack has been removed from the trail. 
The Trail route has been relocated in numerous spots to locate it on 
system trails and/or abandoned logging roads. The PNT, with agency 
support, will probably, like the other National Scenic Trails, continue 
to evolve.
    Although the PNT was not originally recommended for National Scenic 
Trail Status, the members and volunteers would not let the vision of a 
Pacific Northwest National Scenic Trail die. In the mid 1980's the PNTA 
formed a partnership with the British Army. The Army crew worked for 
three summers building new sections of the trail on Blanchard Mountain, 
in Skagit and Whatcom Counties, in the State of Washington. Our 
volunteers worked to keep the trail in Skagit and Whatcom Counties 
maintained along with some new trail construction in Island County 
during the late 1990's.
    In 2000 we developed our Service-Knowledge-Youth (SKY) Education 
Program and Curriculum thanks to funding from the Ford Motor Company 
and Tully's Coffee Company. This program was instituted in 2001 with 
help from the Sedro-Woolley and Mt. Baker School Districts by putting 
at-risk youth out to work on trails in the Mt. Baker/Snoqualmie 
National Forest. Thanks to Title II monies from the Secure Rural 
Schools Act we were able to provide a stipend to the students for their 
efforts, while they earned additional school credits. In 2001, when 
falling budgets on the Olympic National Forest threatened to eliminate 
an innovative youth work experience program known as the Quilcene 
Ranger Corps, the PNTA stepped in to manage it through a partnership 
with the Forest Service and Washington State University 4-H.
    In 2002, again thanks to Title II and Title III funds, we were able 
to expand our youth programs to Jefferson and Clallam Counties on the 
Olympic Peninsula. This enabled us to help our agency partners, 
performing trail work for which they had neither the manpower nor 
funding to accomplish. We also developed, through private donations, a 
Native Plant Nursery in Mt. Vernon, WA. This had a three-fold purpose; 
(1) to give youth an opportunity to learn about native plants and their 
effect on the environment, (2) to supply native plants to local 
communities and private developers for mitigation/restoration projects, 
and (3) to replant native vegetation along impacted areas along the 
PNT.
    From 2003-2007 we were able to expand the programs to the Okanogan, 
Colville, and Idaho Panhandle National Forests under Title II and 
Grants from the National Forest Foundation. Through other funding 
avenues work took place in the Olympic and North Cascades National 
Parks. These programs will continue through 2008 unimpeded, however 
with the Secure Rural Schools Act not being renewed, some of the 
programs may be in jeopardy after this year.
    Also, in 2003 we developed a partnership with Cascade Job Corps in 
Sedro-Woolley, WA wherein we provide work-based training to young 
people prior to their going out in the workforce. This has proven to be 
a wonderful year-round program where we can provide more services to 
our agency partners. These students do a myriad of different projects 
where they are needed. They have worked in Mt. Rainer National Park, 
Idaho, Eastern Washington, the Olympic Peninsula, and the entirety of 
the Mt. Baker/Snoqualmie National Forest. The crews have built new 
trail bridges and removed damaged ones, built and maintained trails 
while obliterating user made trails. They have removed toilet buildings 
from campgrounds and trailheads in preparation for the installation of 
new ones, done stream restoration for the protection of the Bull Trout, 
installed new trailhead sign kiosks at trailheads, removed hazard trees 
from trails and campgrounds and saved our agency partners large amounts 
of money. In the winter they work on mitigation projects for local 
municipalities and agencies, and have provided labor sandbagging during 
flooding in western Washington.
    With these programs, we've been able to get a tremendous amount of 
work done for our partners, not only on the PNT but also on other 
trails on federal lands. Over 950 youth have participated in our 
programs over the last 7 years, the graduation rate at the schools 
where the programs have been implemented has increased, juvenile 
delinquency rates have dropped, at-risk youth who have never had the 
opportunity are getting out and learning to be stewards of the 
environment, and the agencies have benefited by getting projects 
accomplished.
    The Department of Interior, under the National Trails System Act 
has designated the PNT segments through North Cascades National Park 
(2002), Olympic National Park (2003), and Glacier National Park (2005) 
as National Recreation Trails, a total of 254 miles. Under the Clinton 
Administration the entire PNT was named a Millennium Trail. These are 
all great accolades; however the vision of all who have been involved 
with the PNT is to someday see it become a National Scenic Trail. The 
hikers who through-hike the PNT are astounded by the beauty, the 
elevation changes, the variety of wildlife and flora, and the serenity 
as they head for their final destination at Cape Alava on the Pacific 
Ocean.
    Creating a Pacific Northwest National Scenic Trail makes sense! 
From East Glacier National Park the PNT is a direct connector; tying 
the already designated Continental Divide Trail and the Pacific Crest 
Trails to one another, with the possibility of someday tying the PNT to 
the North Country Trail and creating a Sea-to-Sea Trail. This was all 
part of the vision in 1968 of a National Trail System tying the country 
together, north-to-south, and east-to-west.
    Over the last 30 years, since the PNTA was founded, more than 
131,000 hours of labor on the Trail have taken place with a benefit to 
our agency partners of over 1.5 million dollars. A breakdown on land 
along the Trail where these hours were spent is as follows:


------------------------------------------------------------------------

------------------------------------------------------------------------
National Park Service......................................       13,376
US Forest Service..........................................       79,337
Bureau of Land Management..................................          272
Bureau of Indian Affairs...................................          966
WA Department of Natural Resources.........................       26,931
WA State Parks.............................................        4,337
County Lands...............................................        3.120
City Lands.................................................          305
Private Lands..............................................        2,698
------------------------------------------------------------------------
    Total..................................................      131,342
------------------------------------------------------------------------

    The PNT is broadly supported by many groups such as the Backcountry 
Horseman of Washington, Washington Trails Association, the 
Mountaineers, Jefferson Trails Coalition, Quimper Trail Association, 
Peninsula Trails Coalition, Colville Trails Coalition, Volunteers for 
Outdoor Washington, Washington States Trails Coalition, and Tobacco 
Valley Highcountry Horseman in Eureka, MT.
    County Commissioners in Clallam, Jefferson, Island, Whatcom, 
Okanogan, Ferry, and Pend Oreille counties support a Pacific Northwest 
National Scenic Trail. The mayors of Eureka, MT, Metaline Falls, WA, 
Forks, WA, have sent their support for the Trail.
    Numerous through-hikers, members, students, volunteers, and 
corporations have voiced their support either by sending letters, 
signing petitions, voting and/or commenting on the Washington Watch 
website.

    Senator Akaka. Thank you very much. I want you to know that 
each of your full statements will be included in the official 
hearing record. Now we'd like to begin with the questions to 
each of you.
    Ms. Taylor-Goodrich, before turning to questions on the 
bills you testified on, I have a question relating to two 
national park advisory boards. I understand that the authority 
for both the National Park System Advisory Board and the 
National Park Service Concessions Management Advisory Board 
will expire at the end of this year. Have these Advisory Boards 
been helpful in providing useful advice and recommendations to 
the Park Service?
    Ms. Taylor-Goodrich. Yes, sir. They have been very helpful 
in providing recommendations on a variety of issues.
    Senator Akaka. I thought it would be useful to get that 
response on the record in case the committee decides to extend 
the authorization for either or both of the commissions through 
legislation.
    My next question is on S. 3096 relating to the Cave and 
Karst Institute. The 1998 law that established the Institute 
states that it will be jointly administered by the National 
Park Service. If the Park Service is a partner in this, why 
should there be any requirement for matching funds?
    Ms. Taylor-Goodrich. What we found is the requirement for 
the Federal match to the non-Federal dollars has kept the 
Institute from doing business and taking advantage of grant 
opportunities available from other Federal entities. Removing 
the matching provision will allow the Institute to take 
advantage of a number of opportunities to support itself.
    Senator Akaka. I have a couple of questions on H.R. 1143 
which authorizes the lease of property in Virgin Islands 
National Park. As you know the Park Service concession law 
provides for a standard contract of 10 years with a maximum of 
20 years if the Park Service determines that a longer term is 
needed for construction of capital improvements.
    If 20 years is adequate for other lodging operations in 
National Park units, why should Caneel Bay be given a 40-year 
term?
    Ms. Taylor-Goodrich. The current operator is CBI 
acquisition. They have expressed the need to have additional 
time in order to make improvements to the property and remain 
profitable and competitive in the local hotel market in the 
Virgin Islands.
    Senator Akaka. Last year the Inspector General issued a 
report that criticized the Park Service for allowing private 
use of public lands. In her response to the IG, Director Bomar 
ensured that Park management would move quickly to open these 
areas to the public. I understand that the Caneel Bay property 
that would be leased in H.R. 1143 is reserved for use of the 
resort guests, and not open to the general public. If the Park 
Service entered into a long term lease, would the public be 
allowed to access the property, consistent with Director 
Bomar's statement?
    Ms. Taylor-Goodrich. Mr. Chairman, I am familiar with the 
report from the Office of Inspector General, but it is more 
specific to private clubs and having established private clubs 
on National Park Service managed property and controlling 
access to public lands. In the case of this lease, in 
particular, the public would be allowed to use the property as 
a guest of the resort similar to how other operations and the 
public areas of the resort, grounds, food, beverage and other 
facilities would be open to the public.
    Senator Akaka. Your testimony indicates the Park Service 
would be willing to work with the subcommittee to develop your 
recommended amendments. Will you please provide us with a 
written draft of your proposed amendments?
    Ms. Taylor-Goodrich. We'd be happy to provide that for you.
    Senator Akaka. Thank you. You mentioned that based on a 
value analysis, the Park Service has determined that a lease 
would provide the greatest advantage to the park. Would you 
please provide the subcommittee with a copy of that analysis?
    Ms. Taylor-Goodrich. Yes, we'd be glad to provide a copy.
    Senator Akaka. Thank you. Mr. Rey, I understand that 
Congress previously authorized a heritage area in Iowa to be 
administered by the Department of Agriculture. Eventually, the 
law was amended to transfer the area to the Interior 
Department, because the Heritage Area was not receiving any 
attention in the Department of Agriculture. The Park Service 
already administers a large number of heritage areas. Why does 
it make sense to duplicate this program in the Forest Service?
    Mr. Rey. The Heritage Area that you were referring to was 
the Silos and Smokestacks Heritage Area in the Midwest. That 
unfortunately did not have a logical home within the Department 
of Agriculture. There was no land management involved with 
Agriculture Department lands in the Heritage Area proper.
    This, we think, is a different circumstance for three 
general reasons. First, 89 percent of the land involved in this 
Heritage Area is already managed by the United States Forest 
Service. So that any project that's associated with this 
Heritage Area would have to be approved by the Forest Service.
    The process would be much more streamlined if the Forest 
Service would have direct participation as the management 
entity and with the local cooperator. So I think from a 
practical standpoint the first reason is that we own almost all 
of the land involved. Therefore it could expedite meeting.
    Second, unlike the balance of the Department of 
Agriculture, the Forest Service has a very active Heritage 
Program, both archeological and historical resources. We have 
many sites registered on the National Register of Historic 
Sites. We are representing the Department on the Advisory 
Council, the National Historic Preservation. As I indicated 
earlier we did receive the First Lady's Preserve America award 
this year for our Heritage Programs.
    Finally, although it's not apropos, but I think we know 
which six flags flew over St. Augustine. The third general 
reason is that in all of the other special land use 
designations, save this one, the Forest Service, the Park 
Service and to some extent the Fish and Wildlife Service and 
the Bureau of Land Management all manage areas under those 
programs. They all have National Wilderness Areas, elements of 
the National Wilderness System.
    We just celebrated the designation of Big Sky Wilderness at 
Index, Washington a few weeks ago. Congratulations. We have 
National Scenic or rather National Trails that are the National 
Trail Program. We have National Wild Scenic Rivers. We have 
National Recreation Areas. The Forest Service even has a 
National Seashore in Oregon at Oregon Dunes.
    So this Heritage Area System is an exception to a general 
rule where the Forest Service, the Park Service, the Fish and 
Wildlife Service and the Bureau of Land Management, to one 
degree or another, have all managed units of these systems. So 
this isn't that extraordinary an exception to what has 
generally become the rule.
    Senator Akaka. Thank you very much.
    Senator Burr.
    Senator Burr. Thank you, Mr. Chairman. Mr. Rey, or excuse 
me, Ms. Goodrich. Of the 40 National Heritage Areas that 
currently exist do you know how many of those contain National 
Forest Land within the Heritage boundaries?
    Ms. Taylor-Goodrich. I don't have that information. But we 
can provide it to you.
    Senator Burr. Do you know if the Association with National 
Forest Service land has created any unique challenges?
    Ms. Taylor-Goodrich. Not to my knowledge.
    Senator Burr. Ok. Thank you. Mr. Rey, does the Department 
of Agriculture have a mechanism for funding Kenai Mountains 
Heritage Area if this legislation were enacted?
    Mr. Rey. If this legislation were enacted we would fund it 
as part of the budget request for the Forest Service's State 
and Private Forestry Program and the Chugach National Forest 
Budget in the years after enactment.
    To your first question, I'm aware of only one National 
Heritage Area where the significant amount of Forest Service 
ownership. That's the Northern Rio Grande National Heritage 
Area which is in all honesty, having some problems getting 
enacted because of a disconnect or getting implemented because 
of the disconnect between the ownership and the heritage 
activities.
    Senator Burr. We'll certainly look at that. Would the 
Department of Agriculture raise any opposition if S. 3045 is 
amended to place the Kenai National Heritage Area under the 
jurisdiction of the Department of the Interior?
    Mr. Rey. Our working relationship with the Department of 
the Interior is such that, you know, our primary objective 
would be to support the designation. We'll work out the 
operational details later. But as, you know, we indicated, and 
we can submit for the record, there will be some logistical 
complications associated with using another heritage area 
administrator over top of the management of the National Forest 
lands involved.
    Senator Burr. Ms. Goodrich, let me come back to you if I 
could. In relation to the Caneel Bay Resort lease, I'll say to 
the subcommittee and to the chairman, I've got some real 
questions on this that will take me more time to dig into than 
we've got today. I would ask unanimous consent that I be 
allowed to send additional questions to be answered.
    Has the Rockefeller estate taken a position on the proposed 
lease arrangement? Have they conveyed their position in written 
form to the National Park Service?
    Ms. Taylor-Goodrich. If you would allow me, Mr. Chairman 
and Ranking Member Burr, I have with me today our Chief of 
Concessions Management for the National Park Service, who has a 
more in depth understanding of the Rockefeller's relationships 
with Caneel Bay. Would you mind if I ask her to address that 
question?
    Senator Burr. Be happy to do that, but if she could also, 
if you can't, do we have a written conveyance on their part 
that they're ok with this?
    Ms. Pendry. Yes, sir. My name is Jo Pendry. I'm the Chief 
of the National Park Service Concession Program. We do have 
something in writing from the representative of the 
Rockefeller's stating that they do support. They do have 
certain caveats that they would like to see which I believe are 
already incorporated into the draft legislation. We can provide 
a copy of that letter for you.
    Senator Burr. Ok. To either one of you that can answer it. 
What was the purchase price CBI paid for the lease in 2004?
    Ms. Pendry. I can't remember the exact price, we could get 
that for you for the record.
    Senator Burr. Would you provide that for the record?
    Was CBI acquisition LLC fully aware of the lease expiration 
date when they purchased this property?
    Ms. Pendry. It's my understanding that they were aware that 
the RUE was up in 2023.
    Senator Burr. So that's not a question on their part?
    Ms. Pendry. I don't believe so.
    Senator Burr. Did the National Park Service inquire from 
CBI if they were interested in selling back the remainder of 
their lease? I guess some 15 years?
    Ms. Pendry. Yes, we have had those discussions.
    Senator Burr. What was their reaction to that?
    Ms. Pendry. I don't think they were interested in doing 
that at this time. I don't think the Park Service would be 
aware of all of the implications of doing that until we are 
able to complete a fair market value assessment of the 
property. So they did not indicate opposition or support of 
that.
    Senator Burr. Caneel Bay is a very sought after piece of 
property. It somewhat surprises me that the National Park 
Service would come in as enthusiastic as they are about a sole 
source contract extension of a lease. Not knowing what the 
marketplace might bid the price to, if in fact you had the 
ability to open it to others to bid on.
    The only way that you could do that is if you had explored 
the buyout of the current lease which has 15 years left on it 
by CBI. The fact that they showed little if no interest in 
allowing the National Park Service to buy back those 15 years 
might suggest that what they see as most attractive is the 
ability not to compete with anybody for that property. I don't 
have too great of a confidence in any entity of the Federal 
Government in determining what the value of an asset is. I 
think I can only share this with you that there will have to be 
a great deal more, I believe, addressed in this before I'm 
going to be supportive of moving forward.
    I'm not exactly sure what those questions will be, but I 
will assure you over the next 10 days I'll get those to the 
Department. I think we have rushed this before we were ready to 
fully think it through. I would ask the chair to pay particular 
attention to this as we think about any type of mark up on 
legislation. I thank you, Mr. Chairman.
    Senator Akaka. Thank you very much, Senator Burr. Let me 
ask Senator Cantwell for any statement you may have.
    Senator Cantwell. Thank you, Mr. Chairman. I would like to 
enter a statement into the record about what we were trying to 
do in the Northwest.
    Welcome Mr. Knechtel for being here today. We appreciate 
you being here very much. Sorry to hear about the loss in your 
family. We appreciate you coming to testify about this 
important legislation.
    Obviously the Pacific Northwest Trail which really goes a 
great distance across a large part of the Northwest is 
something that we think should be designated even more as a 
national treasure. But Mr. Knechtel, because the trail connects 
three major National Parks from the Olympic coast all the way 
to Montana, I really have a question for you about the who 
should manage this area if such designation is given.
    The Park Service does currently manage, I think, five of 
the eight National Scenic Trails. Three of which are over 1,000 
miles long. So I don't know if you have any thoughts that you 
want to share on that particular question.
    Mr. Knechtel. Thank you, Senator. When I first started 
working with Tom Gilbert, who is an employee of the Park 
Service last year, we had the Department of Agriculture as the 
administering agency for the trail. After quite a bit of 
thought and when it got to your office it was decided that it 
made more sense that the Department of Interior over administer 
the trail because of the North Country Trail being a National 
Park Service administered trail, their Board having looked into 
the possibility of adopting that section in North Dakota and 
Montana that would connect the Pacific Northwest Trail to the 
North Country Trail at the Continental Divide which would make 
it a sea to sea trail.
    When I was talking with Mr. Merkel in your office, we 
changed that language in the legislation to Department of 
Interior and that was the main reason. The Pacific Northwest 
Trail is a vital link connecting the Continental Divide Trail 
and the Pacific Crest Trail which are both Forest Service 
Trails along the Northern tier of the United States and then 
continuing on to the Pacific Ocean. I work with both agencies.
    Over the last 7 years we've done 70 some thousand hours 
worth of work for the Forest Service, 15,000 for the Park 
Service. It's been a little easier through the Secure Rural 
Schools Act to get money to work on Forest Service land than it 
has been through NRTP to do work on Park Service land. So 
that's what brings about the discrepancy in the amount of 
volunteer hours that have been put out there by not only by our 
sky education programs but our volunteers and everything.
    It makes no difference to me in the long run whether it be 
the Department of Agriculture, Forest Service or Department of 
Interior Park Service who administers the trail.
    Senator Cantwell. Ok.
    Mr. Knechtel. I would just like to see the trail 
designated.
    Senator Cantwell. Thank you. Thank you. I see that there is 
a great deal of support from the Commissioners from most of 
those counties, Cowlitz, Jefferson Islands, Skaqit. Why do you 
think it's getting such support from all those counties?
    Mr. Knechtel. We have, with our youth education programs 
and over the last 7 years, we developed the sky program which 
is service, knowledge and youth, and that has been done under 
the Secure Rural Schools Act, has put this curriculum into 
schools. We've employed over 950 youth, ages 13 to 21 over the 
last 7 years. They have done numerous jobs.
    The counties in the State of Washington have been very 
impressed with the inclined rate of graduation from the schools 
where the program is plus the decline in juvenile delinquency. 
It's been an extremely beneficial program, especially to the 
Forest Service, who has benefited most by it.
    Senator Cantwell. Thank you. Thank you, Mr. Chairman. If I 
could, as I said, put a longer statement in the record. Thank 
you.
    Senator Akaka. Thank you very much, Senator Cantwell. You 
know that the Park Service has no objection to that and also 
was asking that we authorize the feasibility study for that. 
Thank you. Thank you very much.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. Thank you to 
the folks who have testified today. Mr. Rey, a couple questions 
for you about the Kenai Mountains-Turnagain Arm Corridor.
    Before I begin those I wanted to just note for the record, 
Senator Burr you had mentioned, you asked about the cost. In my 
opening statement I kind of referred to this as the low budget 
option. We're trying to figure out a way that it isn't a burden 
to the taxpayer, something that will work. I think that the 
folks that were working to put this proposal together were 
looking for just that.
    They have indicated that, in so far as, we know the moneys 
ultimately come from the appropriations process. The Corridor 
Communities Association will have to come up with 25 percent 
match on the Federal grants. The Association strongly believes 
that they can make this concept work even if there's little or 
no new Federal money made available. They believe they can do 
so by leveraging partnership in the existing resources. There 
won't be any Federal grants to support the heritage area that 
would come from the National Park Service accounts. It's my 
understanding.
    I want to explore a little bit the suggestion that both 
you, Mr. Rey and Ms. Taylor-Goodrich have suggested that we 
need to move forward with this feasibility study. This idea 
that the Kenai Mountains-Turnagain Arm Corridor area become a 
Heritage area has been around for about a decade. It's passed 
the Senate before.
    The historic, the cultural attributes of the area are very 
well documented. What do you think we gain from the feasibility 
study that we don't already have?
    Mr. Rey. What we have is much of the underlying information 
that would go into a single feasibility study spread across a 
couple of different documents. Some of it's in the Chugach Land 
and Resource Management Plan. Some of it's in the Iditarod 
Trail proposal. Some of it's in the Seward Highway proposal, 
not proposal, project.
    So I think what we're seeking is to collect all of that 
information in one location so that it does have a totality to 
it. Do one more evaluation to see if there's anything else that 
we're overlooking. There are a few boundary adjustments that 
may need to be made, things like that.
    Senator Murkowski. But I----
    Mr. Rey. I don't look at it as a major project, a fairly 
quick action.
    Senator Murkowski. Ok. Because the concern, of course, that 
we have in going back to Senator Burr's point which is 
absolutely legitimate. We don't want to spend money 
unnecessarily doing things that we've already done before 
gathering more information. So you feel that we could do 
something that kind of wraps it all together. Do so in a manner 
that is fiscally responsible or frugal without necessarily 
reinventing the work that is already out there.
    Mr. Rey. I think we're talking about bringing that work 
together and combining it with a multi year action plan at a 
cost of probably somewhere around 100,000 dollars total.
    Senator Murkowski. You think that you can do that in a 
timely manner?
    Mr. Rey. Yes.
    Senator Murkowski. Ms. Taylor-Goodrich, do you concur?
    Ms. Taylor-Goodrich. We concur. We'd be glad to provide any 
advice and assistance needed to Mr. Rey.
    Senator Murkowski. In response to Chairman Akaka's question 
about, you know, why the Forest Service as opposed to the Park 
Service. I think your outline of why the Kenai Mountains-
Turnagain Arm Corridor is a little bit different, the fact that 
89 percent of the lands are managed currently by the Forest 
Service, primarily there in the Chugach. Can you perhaps 
elaborate for the committee some of the other things that the 
Chugach National Forest is doing that would be complemented by 
a National Heritage designation?
    Mr. Rey. Sure. The management of the Iditarod National 
Heritage Trail which would be in this Heritage Area in part, 
the management of the Seward Highway Heritage Corridor, the 
Alaska Railroad Whistle Stop Tour which we've constructed and 
interpreted as a recreational and heritage resource. I believe 
we've got some sites on the Chugach that would be within this 
Heritage Area that are probably eligible for the National 
Register of Historic Sites. There is an active archeological 
program on the Chugach National Forest that interprets a number 
of archeological and historic sites, both Native American as 
well as early settlement.
    The area is a corridor that essentially opened up the 
interior of Alaska to settlement by, you know, the Russians and 
then subsequently, America. So it's rich in historic resources 
and rich in archeological resources since the Alaska native 
population used some of those travel corridors before the post 
Columbian population did.
    Senator Murkowski. I appreciate your comments. I think it 
is important to identify how this particular corridor or area 
might be appropriate for oversight by the Forest Service as 
opposed to the National Park Service because I think we need to 
be sensitive to duplication of efforts within agencies. But I 
think when you have agencies that recognizes that because of 
all the other things that are going on under that oversight 
currently that really in order to gain as many efficiencies as 
possible the best thing to do is to mirror the program that is 
happened or taking place in another agency and yet have that 
oversight be done by the Forest Service as we're proposing 
here. You gain the best of all worlds.
    Mr. Rey. Yes. I think the objective here is to try to avoid 
duplication. You know we have many jointly managed areas.
    So what we always try to do with the Park Service and with 
the Bureau of Land Management is to try to manage them jointly 
on the basis of what the greatest level of efficiency we can 
achieve. Through that effort would be where we've got the 
preponderance of the underlying resource, we take the lead. 
When they've got the preponderance of the underlying resource, 
they take the lead.
    In the case that we were just describing which is the 
Pacific Northwest Trail, it's about, you know, an even bet. 
There are three National Parks and seven National Forests. I 
think we've got about 60 percent of the trail corridor. You've 
probably got about 38 percent of the trail corridor. So, again, 
you all decide who you want and we'll figure out the 
operational details.
    But you can make it easier for us by reflecting what's 
really there on the ground. The fact that this is the first 
Forest Service Heritage Area is, you know, an anomaly that 
isn't necessarily dis-positive as opposed to how we could best 
manage the heritage resources in this area.
    Senator Murkowski. I appreciate those comments. Mr. 
Chairman, I would hope that we could work with Mr. Rey and Ms. 
Taylor-Goodrich and others to make this a reality in this 
incredibly historic and scenic part of the State of Alaska. So 
thank you.
    Senator Akaka. Thank you very much, Senator Murkowski. Let 
me follow up by asking a question of Mr. Rey. I understand that 
you are asking that the area feasibility study be completed, I 
think you had asked that. What does it require to complete it?
    Mr. Rey. I think what would be required here is to take the 
information that currently exists in four separate studies, 
consolidate them into one, make sure we've answered all the 
remaining questions. We still are adjusting boundaries a little 
bit. Then use that study as the conclusion for proceeding.
    Senator Akaka. Thank you. I have a question for Mr. 
Knechtel. The study for the Pacific Northwest Trail is now 
almost 30 years old. That study did not recommend, as you know, 
including the trail in the National Trail System.
    Mr. Knechtel. Right.
    Senator Akaka. As you have heard today, the Park Service is 
recommending that the bill be amended to require an update of 
the study. I think you have the proper knowledge here to answer 
my question. My question to you is, what are your thoughts on 
their proposal?
    Mr. Knechtel. I think, you know, I've read the 1980 
feasibility study numerous times. Most of the people who were 
against recommending the trail in 1980 have now come around and 
are supporting it, such as the Department of Interior. You know 
the Mountaineers in the State of Washington were very much 
against the trail. They're very much in favor now.
    Most of the trail has been, in the 1980s wasn't on trail. A 
lot of the trail was bushwhacked, which, you know, cross 
country, which is a no-no with the Forest Service. Those have 
almost all been taken out. There's one left in Northern Idaho.
    I've been working with the Idaho State Forest and also the 
U.S. Forest Service on trying to get a trail, either do the 
NEPA and build a trail. The State Forest Service has said that 
they would support that. I haven't got that commitment from the 
Forest Service yet, but it would be about a mile of new trail 
on Forest Service land.
    I guess where I'm coming from, Senator Akaka, is I don't 
feel that there is a true need to do a complete feasibility 
study review. I'd rather see that $250,000 or half a million 
dollars be put into the trail. As far as building or finishing 
it, there is a couple of sections where NEPA would have to be 
done to get the trail off of some roads in Stevens County in 
Washington.
    You know I'm not going to fight the government if they do 
want to update the feasibility study. You know I'm going to 
work with my partners and with the agencies. That's my firm 
belief.
    You don't get anywhere by fighting the system. You work 
with the system. You support them. Hopefully in return, they'll 
support you.
    I just, you know, the trail is all on trail. People hike it 
every year. There are some sections that need to be moved off 
of major roads. I'd rather see that money for the feasibility 
study be spent there.
    Senator Akaka. I'm really taken with what you said. The way 
it came to me was, the connection made will be from sea to 
shining sea.
    Mr. Knechtel. Right.
    Senator Akaka. Across the country.
    Mr. Knechtel. This, Senator is a vision of a lot of people 
is to see this sea to sea route from Cape--from, you know, 
Massachusetts clear across to the Pacific Ocean. Andy Skurka 
hiked this particular trail 3 years ago. It took him 11 months. 
But he did make the hike using the Long Trail, the New England 
Trail, the North Country and our trail to accomplish it.
    Senator Akaka. Thank you very much for that. Senator, do 
you have any?
    Mr. Knechtel. Thank you.
    Senator Akaka. I want to thank you. This has been a good 
hearing. I want to thank each of you for testifying this 
afternoon.
    Without question, your statements and testimony will be 
very helpful to us. We look forward to working with you, even 
with your recommendations here to us on each of these bills.
    Now before we close today I want to let you know that some 
members of the committee who were not able to attend this 
afternoon may want to submit additional questions in writing. 
If they do, we will forward them to you and ask you to respond 
to the questions.
    I look forward to moving some of these bills. Thank you 
again. This hearing is adjourned.
    [Whereupon, at 3:47 p.m. the hearing was adjourned.]

    [The following statement was received for the record.]

                National Cave and Karst Research Institute,
                                       Carlsbad, NM, June 10, 2008.
Committee on Energy & Natural Resources, 312 Hart Senate Office 
        Building, U.S. Senate, Washington, DC.
S. 3096--Proposed legislation to amend Section 5(a) of the National 
Cave and Karst Research Institute Act of 1998

    Caves and karst are a hidden, little known, yet vital underground 
resource that directly impact over 25% of the United States. The 
National Cave and Karst Research Institute (NCKRI) was created by the 
U.S. Congress in 1998 to support and conduct research, education, and 
sound management of these areas directly and through partnerships with 
other entities. One group of crucial partners are federal agencies and 
federally-funded organizations which hold properties that contain many 
of the country's and world's most significant caves and karst areas. 
Unfortunately, the legislation that created NCKRI had the unexpected 
effect of severely limiting NCKRI's ability to establish those crucial 
partnerships. As Executive Director of NCKRI, this letter is submitted 
to strongly support passage of S.3096 so NCKRI can more effectively 
fulfill its mandates.
    Section 5(a) of the National Cave and Karst Research Institute Act 
of 1998 requires NCKRI to receive matching non-federal funds for the 
federal funding it is allocated. While the intent of this requirement 
seems clear, the reality is that NCKRI is either unable to work with 
federal or federally-funded agencies, or can do so under conditions 
that can seldom be achieved. The two fundamental problems are that in 
many cases:

          1) Non-federal matches may not exist for the specific needs, 
        or cannot be effectively located without disproportionate 
        expenditure of NCKRI resources;
          2) There is often insufficient time to locate non-federal 
        funds.

    In the case of grants, such as from the National Science 
Foundation, potential non-federal sponsors do not want to commit funds 
for protracted grant review periods without a clear end date (since 
many grants are not accepted in the first round of review but years 
later in future rounds) or reasonable degree of certainty that the 
federal funds will be approved.
    During the past year, I have met with staff from the Bureau of Land 
Management, Department of Defense, and the U.S. Fish and Wildlife 
Service, Forest Service, and Geological Survey. They were all 
supportive of NCKRI and interested in partnering, but put-off by the 
matching funds requirement. For example, in May 2008, the Klamath 
Network of national parks contacted NCKRI to develop a program for 
inventorying and monitoring caves. Instead, the funds for that program 
may likely go to a private consulting firm, which would provide no 
match. Within the last week, the Bureau of Land Management released a 
request for proposals for cave management and research needs in New 
Mexico, with an estimated total 5-year budget that nearly matches 
NCKRI's current combined federal and non-federal annual budget. Given 
the constraints of time and personnel, NCKRI hopes for affiliation with 
whichever organization receives this project, but will not benefit from 
the funds, growth, and prestige that receiving this project would 
provide.
    Should S.3096 be approved, there may be concern that the matching 
funds currently provided by the State of New Mexico, through the New 
Mexico Institute of Mining and Technology (NMT), may diminish or cease. 
That will not occur. I have been assured by the NMT President and Vice-
President and Associate Vice-President of Research and Economic 
Development that NCKRI has NMT's full support regardless of federal 
funding, and have seen their words supported by actions. Additionally, 
it is in NMT's and the State of New Mexico's best interest for NCKRI to 
succeed and bring in additional funding, both of which would be greatly 
facilitated by approval of S.3096.
    In 1998, Congress took an unprecedented step in recognizing the 
importance of cave and karst resources by creating NCKRI. Approval of 
S.3096 will remove a well-intentioned but flawed clause that severely 
limits NCKRI's ability to effectively fulfill the purposes Congress 
intended.
            Sincerely,
                                        George Veni, Ph.D.,
                                                Executive Director.
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

        Responses of Jon Knechtel to Questions From Senator Burr

    Question 1. Northwest National Scenic Trail Designation (S. 2943): 
How much of the Pacific Northwest Trail is currently established, who 
manages it, and how is it funded?
    Answer. The majority of the Pacific Northwest Trail (PNT) is on the 
ground and people hike it on a yearly basis. 900 miles of the trail are 
actual trail; the balance is on minimal-use roads (263 miles), minimal-
use paved roads (30 miles), city or county roads (130 miles), state 
highways (30 miles), and US Highways (4 miles).
    The National Park Service (NPS) maintains those sections of the PNT 
within their boundaries. If the PNTA obtains grant money, we have been 
able to put our youth crews within the parks to help with the 
maintenance.
    Very few districts of the United States forest Service (USFS) have 
trail crews so the PNTA, as a non-profit, applies for and receives 
substantial grant monies each year to place our Service-Knowledge-Youth 
(SKY) Crews on USFS land to not only maintain the PNT, but help the 
USFS maintain other trails, trailheads, and campgrounds. A lot of 
maintenance on USFS land is also done by our volunteers.
    Many sections of the trail (such as state, county, city, or private 
lands) are maintained by volunteers from the Pacific Northwest Trail 
Association and our SKY Youth programs. The PNTA has also implemented, 
and supplied tools to, many Trail Maintenance Organizations (TMO's) 
over the years such as the Quimper Trail Association (Port Townsend, 
WA), the Skagit TMO (Mt. Vernon, WA), Glacier Trail Club (Bellingham, 
WA), the Oroville TMO (Oroville, WA), and the 49th Parallel Mountain 
Cursors (Eureka, MT). The PNTA has also formed partnerships with many 
Trail Coalitions (TC's) such as the Peninsula TC (Port Angeles, WA), 
Whidbey Island TC (Oak Harbor, WA), Skagit TC (Mt. Vernon, WA), 
Okanogan TC (Okanogan, WA), and Colville TC (Colville, WA). The PNTA 
has also developed partnerships with the Backcountry Horsemen of 
Washington, Idaho, and Montana, Tobacco Valley High Country Horsemen 
(Eureka, MT), Washington Trails Association, Washington, Idaho, and 
Montana Conservation Corps, Cascade (Sedro-Woolley, WA) and Curlew Job 
Corps Centers (Curlew, WA).
    The PNTA has developed numerous youth programs which have been 
funded by the Secure Rural Schools Act, NRTP Grants, and grants from 
the National forest Foundation. Private funding has been available, 
over the years, from companies such as Weyerhaeuser, Microsoft, 
Williams Corporation, Ford Motor Company, Tully's Coffee, the Spring 
Family Trust, Skagit Community Foundation and many others.
    Question 2. Northwest National Scenic Trail Designation (S. 2943): 
How many private property owners have land that is part of the Pacific 
Northwest Trail corridor?
    Answer. There are some private timber companies where Land Use 
Agreements are in place, and the WA Department of Natural Resources and 
State Parks where agreements are in place. The trail uses rural-urban 
trails which are owned and protected by cities and counties. There are 
some small landowners along the trail, where if permission has been 
given the trail goes through their property; otherwise it traverses the 
property on county roads.
    Question 3. Northwest National Scenic Trail Designation (S. 2943): 
Will any land need to be purchased to complete the Pacific Northwest 
Trail, what is the estimated cost, and is the Federal government 
expected to purchase it if the legislation is enacted?
    Answer. To complete the trail on federal lands, there are a few 
areas where new trail would have to be built to get it off roads. These 
would require NEPAs to be done, however the trail would most likely be 
built by volunteer labor.
    There are some sections along the trail, through private land, that 
could possibly be purchased. Most of these lands have had the 
merchantable timber removed in the last 15-years and won't be harvested 
for another 25-40 years, if then. I don't know what the costs would be 
as we've never negotiated that.
    State Lands in Washington, through which the trail passes, would 
not be available for purchase under the RCW Codes of the State. There 
is no language in the RCW Codes allowing the sale of, or 30-year 
easements, through State Trust Land, however a permanent license to use 
these lands is available under the RCW Codes.
    If NST Status is granted for all the federal lands the trail passes 
through, then purchases could be made of private lands as they come 
available through yearly appropriation requests, private donations, 
land swaps, or through the Land Conservation Acts.
    If granted NST Status by the Federal Government, the Pacific 
Northwest National Scenic Trail (PNNST) would be in a better position 
to garner private funds and different types of available grant monies, 
than now exist to a strictly non-profit organization. More community 
involvement along the trail would take place because of the economic 
impact of having a National Scenic Trail in their backyard. I also feel 
because of the diversity of trail types, under the Recreational 
Opportunity Spectrum, the PNNST would allow more users to partake in 
the outdoor experience. With the rail-trails along the PNT, handicapped 
persons and mothers with baby strollers can join the ranks of trail 
users.
    Those of us who have spent many years working on the PNT, putting 
these agreements together, building new sections of trail, getting 
youth into the great outdoors, to learn about the environment and help 
maintain, not only the PNT, but trails that our agency partners don't 
have the funding to maintain feel that we have one of the most scenic 
trails in the country.
    Yes, there are issues to be faced and worked through, however these 
issues are no different than those undertaken by all the other trails. 
The PNTA has spent the last 30-plus years getting to this point without 
the benefits provided the other NST and NHT Trails. We feel the PNT 
should be a part of the National Trail System because it not only is an 
extremely scenic and diverse trail, it provides a vital link to our 
National Trail System connecting the Pacific Crest and Continental 
Divide National Scenic Trails to the Pacific Ocean.
                                 ______
                                 
          Responses of Mark Rey to Questions From Senator Burr

    Question 1. The Secretary of Agriculture was previously given 
responsibility for the Silos and Smokestacks National Heritage Area. 
The arrangement was not successful and the bill was amended to give 
oversight authority to the Secretary of the Interior. What were the 
circumstances that resulted in the transfer of oversight from 
Agriculture to Interior and how has that been resolved for the proposed 
Kenai Mountains Heritage Area?
    Answer. The Secretary of Agriculture was originally designated in 
1996, as the lead in assisting with the development of the Heritage 
Area called ``America's Agricultural Heritage Partnership: Silos & 
Smokestacks.'' However, the management entity later worked to change 
this designation. The Silos & Smokestacks website provides the 
following explanation for the change:

          We have asked the Iowa Congressional and Senate delegation to 
        amend the original legislation and place us under the 
        Department of Interior where all other Heritage Areas are 
        established. AAHP was originally placed under the Department of 
        Agriculture because it was thought that our story fit their 
        mission. While the USDA will continue to assist Silos & 
        Smokestacks, from the standpoint of funding and technical 
        assistance, we have determined that our best ``home'' is with 
        the National Park Service, which is behind the development of 
        heritage areas.

    In 2000, an omnibus parks bill was enacted that transferred the 
responsibility for the Heritage Area from the Department of Agriculture 
to the Department of the Interior.
    In the twelve years since Silos & Smokestacks was established, it 
has not received any Federal financial assistance through USDA because 
Congress never appropriated funds despite the authorization for up to 
$1 million annually, not to exceed $10 million by 2012. In contrast, 
the National Park Service presented Silos & Smokestacks with a check 
for $248,000 on May 5, 2000. The scenario described above did not 
involve the Forest Service. The Forest Service has a rich and vibrant 
heritage program established in 1980. In fact, in February 2008, the 
Forest Service received the Advisory Council on Historic Preservation's 
award for Federal Preserve America Accomplishment.
    S. 3045, which would establish the Kenai Mountains-Turnagain Arm 
National Forest Heritage Area, would give the Department of Agriculture 
responsibility because:

  <bullet> There is a long-standing and proven relationship between the 
        Forest Service and the management entity that has successfully 
        accomplished several heritage related projects.
  <bullet> The management entity has requested that the Forest Service 
        be the lead Federal agency.
  <bullet> The goals and objectives of the proposed heritage area are 
        very compatible with the land management plan for the National 
        Forest System (NFS) lands included within the boundary.
  <bullet> The Alaska Regional Office of the National Park Service has 
        been supportive and has agreed to collaborate fully with the 
        Forest Service.

    Question 2. S. 3045 authorizes certain appropriations for use by 
the Kenai Mountains National Heritage Area. Does Department of 
Agriculture have a mechanism for funding Kenai Mountains Heritage Area 
if this legislation is enacted?
    Answer. S. 3045 authorizes appropriations to be made available to 
the management entity for the development and implementation of the 
management plan for the Heritage Area.
    The Forest Service would have a mechanism for making that funding 
available to the management entity if the legislation is enacted and 
funds are appropriated as authorized. The Forest Service already has 
resource staff in place throughout the Area, including archaeologists, 
recreation/tourism planners, landscape architects, and engineers. 
Within existing authorities and budgets, we can provide a limited 
amount of technical assistance to local communities, and are now doing 
so. Because the Forest Service manages most of the land within the 
proposed Area, we have the resource information, visitor information, 
and technical tools needed to support the goals of the proposed 
Heritage Area, as well as working relationships already established 
with local communities. In the past, we have provided financial 
assistance to local communities through the Economic Recovery Program, 
but due to national budget priorities, this program has not received 
funding in the past few years.
    Mechanisms are already in place to grant monies to other entities 
through State and Private Forestry (S&PF) programs and more recently, 
through the National Forest System programs if funding is made 
available. There are at least four grant authorities that could be 
applied to this type of activity:

  <bullet> National and Community Service Act of 1990 (provides 
        broadest authority for National Forest System activities).
  <bullet> National Forest Dependent Rural Communities Economic 
        Diversification Act of 1990 (provides broadest authority for 
        State and Private Forestry program activities).
  <bullet> Cooperative Forestry Assistance Act of 1978.
  <bullet> National Trails System Act and Wild and Scenic Rivers Act.

    To provide the same level of technical and financial assistance 
that the National Park Service generally provides to Heritage Areas, 
the Forest Service will need to have comparable level of funds 
appropriated for this purpose. For a Heritage Area managed by the 
Forest Service, funding appropriated to implement the legislation would 
need to be within BLIs that are appropriate to the types of activities 
being undertaken. Maintaining the existing level of funding for the 
Chugach National Forest and S&PF programs is essential to managing 
existing facilities and programs on National Forest System lands and 
state and private lands in Alaska.
    Question 3. Are we setting a precedent for other states or local 
interest groups to request National Heritage Areas associated with the 
Department of Agriculture if S. 3045 is enacted as introduced?
    Answer. Since many lands administered by the Forest Service have 
significant heritage resources and good working relationships with 
local communities, it is possible that other local interest groups 
could request similar legislation.
    Question 4. Are you aware of any other National Heritage Areas that 
are proposed for association with the Department of Agriculture?
    Answer. We are not aware of any proposed heritage areas that would 
be administered by the Department of Agriculture. But, of the bills 
introduced in the 110th Congress that would designate 12 new heritage 
areas and revise 4 existing heritage areas, we are aware of 5 proposals 
that include NFS lands. Those 5 are Northern Plains National Heritage 
Area (S. 2098), the Sangre de Cristo National Heritage Area, Colorado 
(S. 443), the Cache La Poudre River National Heritage Area, Colorado 
(S. 128), the South Park National Heritage Area, Colorado (S. 444), and 
the Land Between the Rivers Heritage Area, Illinois (S. 956). In fact, 
the proposed Land Between the Rivers Heritage Area would encompass the 
entire Shawnee National Forest.
    Question 5. Would the Department of Agriculture raise any 
opposition if S. 3045 is amended to place the Kenai Mountains National 
Heritage Area under the jurisdiction of the Department of the Interior 
as is the case for all other National Heritage Areas?
    Answer. The Alaska Region Forest Service has been working for many 
years with the local management entity to articulate and accomplish 
goals related to the proposed Heritage Area. Our mission is very 
compatible with the proposed goals. We feel that this historically 
significant area deserves recognition as a National Heritage Area, and 
would support designation under whichever Department the members of 
Congress see fit; however, we believe that designating the Department 
of Agriculture as the lead would avoid unnecessary layers of 
bureaucracy and duplication of efforts.
    Question 6. Of the 40 National Heritage Areas that currently exist, 
how many of those contain National Forest Service land within their 
boundaries? Has the association with the National Forest Service land 
created any unique challenges?
    Answer. NFS lands are included within 12 of the 40 currently 
existing National Heritage Areas (30 percent). The NFS land involved 
ranges from 1 percent to about 50 percent of lands within individual 
heritage area boundaries. Forest Service units work cooperatively with 
the National Park Service on heritage tourism opportunities related to 
the heritage areas. The amount of involvement by the Forest Service 
varies greatly from one heritage area to the next due to differences in 
the management plans for the heritage areas and the varying amounts of 
NFS lands involved. We are not aware of any unique challenges with 
current heritage areas.
                                 ______
                                 
    [Responses to the following questions were not received at 
the time the hearing went to press:]

       Questions for Karen Taylor-Goodrich From Senator Bingaman

      H.R. 1143--CANEEL BAY LEASE IN VIRGIN ISLANDS NATIONAL PARK

    Question 1. H.R. 1143 provides for a lease for a term not to exceed 
40 years. Has the National Park Service conducted any analysis to 
determine what the appropriate length of the lease should be?
    Question 2. It's my understanding that a concession contract may 
not exceed a term of 20 years. Have companies providing lodging 
services in national park system units under concession contracts been 
able to obtain financing for capital improvements?
    Question 3. H.R. 1143 requires the Secretary of the Interior to 
require appraisals to determine the property's fair market value rent, 
as determined by appraisals. Given the unique nature and location of 
the Caneel Bay property, what do you expect to use as comparable 
properties?
    Question 4. Section 2(b) of H.R. 1143 requires any lease to include 
``the property covered by the RUE and any associated property owned by 
CBI donated to the National Park Service.'' What associated property is 
CBI planning to donate to the Park Service? Does this paragraph cover 
different associated property than that described in paragraph 3(e), 
which requires the lease to take into account the value of any 
associated property transferred by CBI to the National Park Service?
    Question 5. Section 3 of H.R. 1143 provides that ``as a condition 
of the lease, CBI shall relinquish to the Secretary all rights under 
the RUE and transfer, without compensation, ownership of improvements 
covered by the RUE to the United States.'' Section 2(c) requires the 
lease to require payment to the United States of the property's fair 
market value rent, taking into account the value of any associated 
property transferred by CBI . . .''
    Question 5a. Does the National Park Service interpret these 
provisions to require that CBI will receive no compensation for any 
property or improvements covered by the RUE, but will receive 
compensation for any associated property conveyed to the National Park 
Service?
    Question 5b. Under the terms of the RUE, is CBI entitled to any 
compensation for any structures or improvements covered by the RUE?
    Question 6. Please provide a list of the specific properties owned 
by CBI that would be conveyed to the National Park Service as 
``associated property''.
    Question 7. Please provide a copy of the retained use estate 
referenced in H.R. 1143.
    Question 8. If Caneel Bay operates under the lease authorized under 
H.R. 1143, will the resort grounds and beaches be limited to use by 
guests of the resort, or will they be available for use by park 
visitors in general? If the general public (other than resort guests) 
will not be allowed use of the Caneel Bay grounds and beaches, please 
explain how that restriction is in the public interest.
    Question 9. Does the National Park Service allow any concession 
operators of hotels or lodging establishments at any other park to 
preclude public access (other than guests of the lodge) to large areas 
of public parkland?

         Questions for Karen Taylor-Goodrich From Senator Burr

         SEQUOIA-KINGS CANYON WILDERNESS DESIGNATION (S. 1774)

    Question 10a. Approximately how many property owners have in-
holdings within the boundaries of the land designated as wilderness by 
S. 1774? Are property owners currently allowed to use motorized 
vehicles to access their property and will this change as a result of 
designation?
    Question 10b. Has the existing general management plan for Sequoia-
Kings Canyon treated the land as wilderness for management purposes or 
will this designation constitute a major change in land use?
    Question 10c. What types of activities will be allowed in the 
proposed area that deviates from standard policy within wilderness 
areas?

         CHISHOLM TRAIL AND GREAT WESTERN TRAIL STUDY (S. 2255)

    Question 11a. What is the length of each trail and how many states 
are involved?
    Question 11b. Will each private property owner with land containing 
portions of the trail be notified of the study and given an opportunity 
to provide comments?
    Question 11c. Is this envisioned as a historic trail for 
designation on a map or will it be a trail that can be used for 
recreation in the form of hiking, bicycling, or horseback riding?

            ST. AUGUSTINE COMMEMORATION COMMISSION (S. 2359)

    Question 12a. What is the typical role of the Secretary of the 
Interior and the National Park Service in a commemoration commission 
and does S. 2359 establish any new role?
    Question 12b. S. 2359 gives the commemoration commission the 
authority to award grants up to $10,000 for projects associated with 
the 450th anniversary of St. Augustine. Do other commissions have grant 
authority and is this any different?
    Question 12c. Does the National Park Service have any units in St. 
Augustine, FL, that are planning activities associated with the 450th 
anniversary?
    Question 12d. Does the bill give the Secretary of the Interior 
sufficient discretion to choose commission members that represent a 
diversity of the culture of Florida and St. Augustine?

     PACIFIC NORTHWEST NATIONAL SCENIC TRAIL DESIGNATION (S. 2943)

    Question 13a. What role does the National Park Service currently 
have in managing, interpreting, and maintaining the Pacific Northwest 
Trail?
    Question 13b. Through which National Parks does the Pacific 
Northwest Trail traverse and is the trail an integral part of the 
history and culture of the area?

              ROUTE 66 CORRIDOR REAUTHORIZATION (S. 3010)

    Question 14a. When was the Route 66 Corridor Preservation Program 
established and how much funding has it received since inception?
    Question 14b. What is the goal of the Route 66 Corridor 
Preservation Program and what is its highest priority project?

     BEAVER BASIN WILDERNESS DESIGNATION AT PICTURE ROCKS NATIONAL 
                          LAKESHORE (S. 3017)

    Question 15a. How many private land owners have in-holdings within 
the area designated as wilderness by S. 3017?
    Question 15b. S. 3017 allows for continued use of electric motors 
to power boats within the wilderness area. How unusual is it to allow 
motorized transportation within a wilderness area and is this a 
compatible use within Beaver Basin?
    Question 15c. Does S. 3017 affect any existing activities within 
Beaver Basin and how will the General Management Plan for Picture Rocks 
National Lakeshore be changed as a result of the designation?

            KENAI MOUNTAINS NATIONAL HERITAGE AREA (S. 3045)

    Question 16a. Has there been any previous attempt to place a 
National Heritage Area under the jurisdiction of anyone other than the 
Secretary of the Interior? If so, how did that work and who does that 
national heritage area currently report to?
    Question 16b. Of the 40 National Heritage Areas that currently 
exist, how many of those contain National Forest Service land within 
their boundaries? Has the association with National Forest Service land 
created any unique challenges?
    Question 16c. Is it possible for a feasibility study of the 
proposed heritage area to be completed by a local entity and submitted 
to the Administration for approval thereby avoiding the need for 
legislation to authorize a study?
    Question 16d. What advice or comments would you give to the 
Department of Agriculture regarding oversight of National Heritage 
Areas?

         CAVE AND KARST RESEARCH INSTITUTE AMENDMENT (S. 3096)

    Question 17a. Since inception, the Cave and Karst Research 
Institute has been required to match Federal funds 1 to 1 with a 
nonfederal source. What is the total dollar amount they have obtained 
from nonfederal sources during that time?
    Question 17b. Want is the estimated annual funding needs for the 
Cave and Karst Research Institute without the nonfederal matching 
requirement?

             CANEEL BAY RESORT LEASE AGREEMENT (H.R. 1143)

    Question 18a. Does the National Park Service see any drawbacks to 
having the management and operation of Caneel Bay Resort converted to a 
long-term lease arrangement?
    Question 18b. The proposed legislation establishes a long-term 
lease with a for-profit firm on a sole source basis. Should we be 
looking at amending the bill to authorize a long-term lease through a 
competitive process rather than a sole source arrangement? Would that 
cause any problems for the National Park Service?
    Question 18c. How many buildings are part of the Caneel Bay Resort, 
when were they constructed, what is their condition, and what is the 
estimated cost to bring them up to standards for long-term use as a 
resort?
    Question 18d. Prior to supporting the legislation, what steps did 
the National Park Service take to determine the fair market value of 
the Caneel Bay Resort, approximate lease rate if the legislation is 
enacted and estimated income to the Federal government during a 40-year 
lease? If so, what were the findings?
    Question 18e. What are the benefits to the National Park Service of 
converting the current arrangement to a long-term lease?
    Question 18f. Has the Rockefeller estate taken a position on the 
proposed lease arrangement and have they conveyed their position in 
written form that can be sent to us? If so, please provide a copy of 
the opinion with your response to this question.
    Question 18g. From whom did CBI purchase the retained use estate in 
2003 and how much did they pay for it?
    Question 18h. Was CBI aware of the retained use estate expiring in 
2023 when they purchased the property and did they attempt to extend 
the expiration date as a condition of purchase?
    Question 18i. What is the estimated value of the retained use 
estate if purchased by the Federal government in 2008?
    Question 18j. Has the National Park Service proposed purchasing the 
remainder of the retained use estate followed by solicitations for a 
lease through a competitive process? If so, when did such discussion 
occur and what was the conclusion? If not, why not?
    Question 18k. What is the estimated income to the Federal 
government if the proposed legislation is enacted and a 40-year lease 
is signed?

                                    

      

</pre></body></html>
